<html>
<title> - PROTECTING AND RESTORING AMERICA'S GREAT WATERS, PART I: COASTS AND ESTUARIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  PROTECTING AND RESTORING AMERICA'S GREAT WATERS, PART I: COASTS AND 
                               ESTUARIES

=======================================================================

                               (110-148)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
43-309                    WASHINGTON : 2008
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
JERRY F. COSTELLO, Illinois          WAYNE T. GILCHREST, Maryland
TIMOTHY H. BISHOP, New York          VERNON J. EHLERS, Michigan
BRIAN HIGGINS, New York              FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
JOHN T. SALAZAR, Colorado            ROBIN HAYES, North Carolina
MAZIE K. HIRONO, Hawaii              HENRY E. BROWN, Jr., South 
HEATH SHULER, North Carolina         Carolina
HARRY E. MITCHELL, Arizaon           TODD RUSSELL PLATTS, Pennsylvania
JOHN J. HALL, New York               BILL SHUSTER, Pennsylvania
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California, Vice     JOHN R. `RANDY' KUHL, Jr., New 
Chair                                York
ELEANOR HOLMES NORTON, District of   CHARLES W. BOUSTANY, Jr., 
Columbia                             Louisiana
BOB FILNER, California               JEAN SCHMIDT, Ohio
ELLEN O. TAUSCHER, California        CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    THELMA D. DRAKE, Virginia
GRACE F. NAPOLITANO, California      ROBERT E. LATTA, Ohio
MICHAEL A. ARCURI, New York          JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Benoit, Jeff, President, Restore America's Estuaries, Arlington, 
  Virginia.......................................................    22
Carlin, Michael P., Assistant General Manager, Water Enterprise, 
  San Francisco Public Utilities Commission, San Francisco, 
  California.....................................................    22
Dicks, Hon. Norman D., a Representative in Congress from the 
  State of Washington............................................     6
Fletcher, Kathy, Executive Director, People for Puget Sound, 
  Seattle, Washington............................................     6
Hooks, Craig, United States Environmental Protection Agency, 
  Director, Office of Wetlands, Oceans, and Watersheds, 
  Washington, D.C................................................    22
Kennedy, David, National Oceanic and Atmospheric Administration, 
  Director, Office of Ocean and Coastal Resources Management, 
  United States Department of Commerce, Washington, D.C..........    22
Kreizenbeck, Ron, Senior Advisor, Puget Sound Partnership, 
  Olympia, Washington............................................     6
Ribb, Richard, Director, Narragansett Bay Estuary Program, 
  Narragansett, Rhode Island.....................................    22
Ruckelshaus, Bill, Chair, Leadership Council, Puget Sound 
  Partnership, Olympia, Washington...............................     6

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Boozman, Hon. John, of Arkansas..................................    39
Carnahan, Hon. Russ, of Missouri.................................    42
Costello, Hon. Jerry F., of Illinois.............................    43
Dicks, Hon. Norman D., of Washington.............................    44
Mitchell, Hon. Harry E., of Arizona..............................    64

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Benoit, Jeff.....................................................    65
Carlin, Michael..................................................    75
Fletcher, Kathy..................................................    81
Hooks, Craig.....................................................    85
Kennedy, David...................................................    97
Kreizenbeck, Ron.................................................   107
Ribb, Richard....................................................   115
Ruckelshaus, William D...........................................   120

[GRAPHIC] [TIFF OMITTED] T3309.001

[GRAPHIC] [TIFF OMITTED] T3309.002

[GRAPHIC] [TIFF OMITTED] T3309.003

[GRAPHIC] [TIFF OMITTED] T3309.004

[GRAPHIC] [TIFF OMITTED] T3309.005

[GRAPHIC] [TIFF OMITTED] T3309.006

[GRAPHIC] [TIFF OMITTED] T3309.007

[GRAPHIC] [TIFF OMITTED] T3309.008

[GRAPHIC] [TIFF OMITTED] T3309.009

[GRAPHIC] [TIFF OMITTED] T3309.010

[GRAPHIC] [TIFF OMITTED] T3309.011

[GRAPHIC] [TIFF OMITTED] T3309.012



  HEARING ON PROTECTING AND RESTORING AMERICA'S GREAT WATERS PART I: 
                          COASTS AND ESTUARIES

                              ----------                              


                        Thursday, June 26, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The Committee will come to order.
    Good afternoon. In today's hearing we will hear testimony 
on the protection and restoration of our Nation's coasts and 
estuaries.
    As many as you know, I represent a district in Texas, which 
is Dallas, and my district possesses neither coasts nor 
estuaries, so this will be news to me.
    [Laughter.]
    Ms. Johnson. It is my strong belief that it is important 
for this Subcommittee to hold hearings on these issues because 
the Nation's coasts and oceans provide a wealth of resources 
for the entire Country and among these areas nowhere is more 
valuable than estuaries.
    Estuaries are bodies of water that receive both fresh water 
from rivers and salt water from the sea. This mix makes a 
unique environment that is extremely productive in terms of its 
ecosystem values. Estuaries are rich in plant life and coastal 
habitat and living species. The ecological productivity of 
these regions translates directly into economic productivity. 
Government studies have found that estuaries provide habitat 
for 75 percent of the U.S. commercial, and 80 to 90 percent of 
the recreational fishing catches.
    The regions surrounding estuaries are both population and 
economic centers, and while the Nation's coastal counties make 
up only 13 percent of the land area in the lower 48 States, 43 
percent of the population live in them. Similarly, coastal 
counties account for 40 percent of the employment and 49 
percent of the economic output for the Nation.
    Perhaps the central problem in the protection and 
restoration of estuaries is that they ultimately lie downstream 
of all. Everything that enters the smallest stream, tributary 
or headwater in a watershed eventually runs into a single 
outlet, impacting in some way all the biological elements of 
that ecosystem, and all of the commerce that revolves around 
the estuary.
    Just two days ago we held a hearing on comprehensive 
watershed management and planning, and it should no doubt be 
clear that today's hearing dovetails with Tuesday's hearing 
very nicely. Only through holistic watershed management and 
planning--flood control, water quality protection, water 
supply, and navigation--will we achieve necessary coastal 
protection.
    To do this properly, we cannot look to the Federal 
Government alone. Indeed, we should not necessarily look to the 
Federal Government as the lead. Instead, proper watershed 
management and estuarine protection must be a process that 
involves all levels of government and all manner of 
stakeholders.
    This is not to say that the Federal Government does not 
have a role. Indeed, only through the active involvement of the 
Federal Government will we be able to restore and protect our 
coasts. Through traditional tools such as Federal water quality 
standards and robust compliance and enforcement activities--and 
also through the monitoring, policy development, and technical 
and financial support--the Federal Government has an important 
role to play. But I cannot emphasize enough that it cannot and 
should not play the role alone.
    The Federal Government, right now, probably won't be 
playing much of a role at all with the money we have. However, 
the Federal Government, through the EPA and other agencies such 
as NOAA, has a number of interesting initiatives in which they 
have used non-traditional tools to try to achieve coastal 
habitat improvements.
    In today's hearing, I look forward to hearing about these 
issues in more detail. I also look forward to hearing from 
Chairman Dicks, an outstanding leader here in the Congress from 
the State of Washington, on the need to protect one of the 
Nation's most important estuaries, the Puget Sound. When you 
mention the Puget Sound here, his name automatically comes to 
mind. It is imperative that resources be dedicated to protect 
this nationally significant water.
    I am very pleased that we have Bill Ruckelshaus here to 
testify today on the importance of protecting the Puget Sound. 
As many of you know, Mr. Ruckelshaus has been instrumental in 
the protection of our environment. He was the first 
Administrator of EPA in the 1970s--and I remember his wife 
well; she was a person who worked with us on women's issues--
and then returning again in 1983 to successfully resurrect EPA 
from the demoralized shell of an agency it had become during 
the early years of the Reagan administration. We can give him 
our heartfelt thanks for his important public service toward 
environmental and public health protections he has engaged in 
throughout his life, and that he continues to do today.
    Now I will recognize Mr. Boozman, my partner on this 
Committee, from Arkansas.
    Mr. Boozman. Thank you, Madam Chair. I, like you, being 
from Arkansas, am not in a position to have estuaries there, 
but certainly understand the importance.
    The Subcommittee today is hearing testimony about a 
longstanding program under the Clean Water Act that is aimed at 
helping to restore and protect our Nation's coasts and 
estuaries, the National Estuary Program. Estuaries are unique 
and highly productive waters that are important to the 
ecological and economic basis of our Nation.
    Fisheries, wildlife, recreation, and tourism are heavily 
dependent on a healthy estuary system. Yes, despite their 
value, most estuaries in the United States are experiencing 
stress from physical alteration and pollution, often resulting 
from development and rapid population growth in coastal areas.
    In the 1980s, Congress recognized the importance of and the 
need to protect the natural functions of our Nation's 
estuaries. As a result, in 1987, Congress amended the Clean 
Water Act to establish the National Estuary Program.
    The National Estuary Program identifies nationally 
significant estuaries that are threatened by pollution, land 
development, and overuse, and provides grants that support 
development of comprehensive conservation and management plans 
to protect and restore them. The Program is designed to resolve 
issues at a watershed level, integrate sites into the decision-
making process, foster collaborative problem solving, and 
involve the public.
    Unlike many other EPA and State programs that rely on 
conventional top-down regulatory measures to achieve 
environmental goals, the National Estuary Program uses a 
framework that focuses on stakeholder involvement and 
interaction in tailoring solutions for problems that are 
specific to that region in order to achieve estuary protection 
and restoration goals.
    Since its inception, the National Estuary Program has been 
a leading example of a collaborative institution designed to 
resolve conflict and build cooperation at the watershed level. 
Today, the National Estuary Program is an ongoing, non-
regulatory program that supports the collaborative, voluntary 
effort of stakeholders at the Federal, State, and local level 
to restore degraded estuaries.
    Currently, there are 28 estuaries in the National Estuary 
Program and all are implementing restoration plans developed at 
the local level through a collaborative process.
    The National Estuary Program has been beneficial in 
improving and protecting the condition of estuaries in the 
Program and the Program shows that a collaborative, voluntary 
approach can provide an alternative to sole reliance on 
traditional command and control mechanisms.
    For example, EPA reports that the National Estuary Program 
has protected and restored over 102,000 acres of estuary 
habitat since 2007 and 1 million acres since 2000. We need to 
be sure that the individual estuary programs continue to 
effectively implement their comprehensive conservation and 
management plans for protecting and restoring the estuaries. We 
need to be careful not to add new layers of programmatic 
bureaucracy on the programs that could divert valuable 
resources away from the implementing of those plans.
    I look forward to the testimony of our witnesses today and 
hearing about the National Estuary Program, how it is working 
well and ways the Program can be further improved.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mrs. Tauscher
    Mrs. Tauscher. Thank you, Madam Chairman, and thank you so 
much for holding this hearing on the National Estuary Program. 
I am so pleased that our very esteemed colleague, Norm Dicks, 
is here today to talk about the Puget Sound and about his work.
    Norm, since becoming the Chairman of the Interior 
Subcommittee on Appropriations a few years ago, you have just 
demonstrated such a very, very strong and unwavering commitment 
to the National Estuary Program. You are a great friend. You 
are a tremendous advocate. No one gets in the way of Norm. I 
hope we all know that. I know his friends on the panel with him 
from the Puget Sound area know how effective he is. But as 
someone that represents the Bay Area, thank you, Norm, for all 
you have done to keep those dollars coming. We really 
appreciate it.
    When the President proposed, very absurdly, low funding 
levels at the EPA a couple of years ago, you simply said no. 
Norm, when you say no, it sticks. You restored full funding and 
ensured that the money goes to its intended purposes, actual 
field work and the estuaries.
    Each year, Jim Saxon and I, along with about 50 colleagues, 
send you a letter asking for funding of the National Estuary 
Program. As we begin this next appropriation process, I want to 
thank you for your continuing commitment to the National 
Estuary Program.
    You know, it is remarkable that these estuaries can 
accomplish so much with only $600,000 of Federal funds each 
year.
    I would also like to welcome Judy Kelly, Executive Director 
of the San Francisco Estuary Project, who is here with us 
today, and Michael Carlin, the Assistant General Manager of the 
San Francisco Public Utilities Commission, who will be 
testifying on the third panel. I am very proud of the work that 
you both have accomplished in San Francisco.
    Our estuary in the Bay Area includes the entire San 
Francisco Bay and Delta, encompassing roughly 1,600 square 
miles. The Bay Delta provides drinking water for 22 million 
Californians and is the economic lifeblood for our State's 
agricultural, fishing, and tourism industries. The health of 
the San Francisco Bay estuary is essential to strengthening and 
continuing to improve the economy and the well-being of our 
environment.
    As we move forward, I believe that this Committee should be 
committed to reauthorizing the National Estuaries Program. 
Through this process, we must understand that the effects of 
climate change will be felt first and acknowlegde in the 
estuaries, where rising sea levels will affect the health of 
the ecosystem. It is essential that the Federal Government 
assist the National Estuary Program in preparing for climate 
change.
    I also believe that the Program should be expanded to 
include additional estuaries. I would like to note that no 
estuaries have been added to the program for 13 years, despite 
considerable interest from other States and localities.
    Chairwoman Johnson, again, thank you for holding this 
important hearing.
    Chairman Dicks, thank you so much for your leadership and 
your support, and, once again, I thank all the panelists for 
appearing today.
    I yield back the balance of my time.
    Ms. Johnson. Thank you, Mrs. Tauscher.
    Now, as they would say in Texas, a man from the neck of the 
woods out there, Mr. Baird, is going to introduce the panel.
    Mr. Baird. Thank you, Madam Chair. It is just a delight for 
me to see so many good friends and, of course, the dean of our 
delegation, Congressman Dicks.
    Norm, thanks for all your leadership on this. The Puget 
Sound Recovery Act is something that has long been needed and 
will really save a precious jewel for not only the United 
States, but for the world.
    Madam Chair and Ranking Member Boozman, as I listened to 
your comments about not being near an estuary, I think we 
should extend an invitation to you for a field hearing and show 
you this magnificent resource. And I actually mean that, 
because it is just such a special place, and those of us who 
live in Washington State truly do cherish this.
    And yet, as beautiful as it is and as much as we love it, 
it is in real jeopardy right now. A host of studies are showing 
that. We have a dead zone in the Hood Canal; we have increasing 
contamination. And these individuals here and the legislation 
before this Committee today has a real chance to help reverse 
that, and I commend you, Madam Chair. The title of today's 
hearing, Protecting and Restoring Our Greater Waters. This is 
one of America's truly great waters and we are committed to 
restoring it.
    As many of my colleagues have spoken about Chairman Dicks' 
he has led the way on salmon recovery; he has led the way on 
identifying and fighting the problems confronting Hood Canal; 
he has brought together a truly collaborative vision in our 
region to help address this; and, of course, he has been 
instrumental in helping our national parks throughout this 
great Country.
    Norm, thank you for your leadership, and this is just one 
more example.
    Madam Chair, it is worth moving this legislation as quickly 
as we can so that, when it passes the House, we can hear 
Chairman Dicks yell ``Huskies,'' his signature celebratory 
shout.
    I also want to thank our other witnesses here. You have 
already acknowledged Administrator Ruckelshaus.
    Mr. Ruckelshaus, thank you so much for your service and so 
many years in so many ways; first as head of the EPA and in 
your other capacities, but also your great service to the 
Pacific Northwest. We are all tremendously grateful.
    One of the strengths of our great region is the role of 
citizen organizations. Kathy Fletcher is Executive Director of 
People for Puget Sound. This is a very effective and 
comprehensive advocacy group.
    Kathy, it is great to see you again.
    And then we are also pleased to have Ron Kreizenbeck here 
who, as I understand, is on loan from EPA, and we thank you, 
Ron, for your work on the partnership.
    This will be truly an enlightening and exciting hearing for 
many of us, really a signature day as we move forward with a 
long-term strategy for restoring this truly great watershed. I 
thank the Chairwoman for her leadership, as well as the Ranking 
Member, and look forward to our witnesses' testimony.
    Ms. Johnson. Okay, we will now begin our testimony. I might 
say, too, that this Transportation Committee has a bill on the 
floor, so we have a number of Members that are there. The 
Honorable Norman Dicks has joined panel two, so they will be 
featured as one panel. But at this time we will recognize Mr. 
Dicks.

TESTIMONY OF THE HONORABLE NORMAN D. DICKS, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF WASHINGTON; BILL RUCKELSHAUS, CHAIR, 
     LEADERSHIP COUNCIL, PUGET SOUND PARTNERSHIP, OLYMPIA, 
  WASHINGTON; KATHY FLETCHER, EXECUTIVE DIRECTOR, PEOPLE FOR 
 PUGET SOUND, SEATTLE, WASHINGTON; AND RON KREIZENBECK, SENIOR 
     ADVISOR, PUGET SOUND PARTNERSHIP, OLYMPIA, WASHINGTON

    Mr. Dicks. I want to thank Chairwoman Eddie Bernice Johnson 
and Ranking Member John Boozman and the other Members of the 
Committee, particularly my colleague, Brian Baird. We are here 
today to talk about our efforts in the Pacific Northwest to 
restore Puget Sound.
    Now, as you know, I am Chairman of the Interior and 
Environment Appropriations Subcommittee, and I just wanted to 
mention that we have increased the funding from the 2008 
request of $6.8 million to $16.6 million for the National 
Estuary Program, and in 2009 it went from $7.4 million in the 
request to $16.8 million. So we are trying to help on estuaries 
across the Country.
    We are also concerned. The great waterways of the Country 
include the Everglades, as one of our great national 
restoration efforts, and then the Chesapeake Bay and the Great 
Lakes and Puget Sound, and, of course, San Francisco Bay is 
another very prominent estuary. Ours, the Puget Sound, is the 
second largest estuary in the Country.
    When I was a kid growing up, my dad used to take us to the 
baseball games in Seattle and we used to go out to Lake 
Washington and we would see the signs: ``Polluted, you can't 
swim in this.'' I mean, it was terrible. And the people of 
Seattle bonded and put together the resources--this was before 
there was a clean water program--and they cleaned up a 26 mile 
lake and restored it, and today it is very pristine. It always 
has to be protected, but it is very pristine.
    We are using that as the model for cleaning up Puget Sound: 
the model so that citizens can play a role in doing this. The 
Governor of our State, Christine Gregoire, has created a Puget 
Sound Partnership. It was first a group that got together under 
the leadership of Bill Ruckelshaus and Jay Manning and Billy 
Frank. We worked for about a year to come up with a strategy 
about how we were going to restore Puget Sound.
    And we brought the GAO out to Seattle and looked at what 
had happened in other restoration efforts and why they hadn't 
been more successful. One of the things that I think is crucial 
is that we are working on an action plan. Bill Rochelshaus is 
the Chairman of the Leadership Panel that works with the 
Executive Director and the Partnership to try and create this 
plan, and the plan will be presented to the State Governor and 
the legislature in December of 2008. This is pretty major 
stuff.
    Now, we know a lot of what the problems are. We have a 
pollution problem and we have runoff from storm sewers. We know 
that many of the salmon and the orcas--and we have lost a lot 
of birds--are affected by mercury. So we have serious 
environmental problems. Puget Sound, I would say, is in 
decline. You look at it, it looks pristine, it looks beautiful. 
This is one of our central problems. We have to educate the 
people of Washington State and the people of our region that 
this is a national estuary that is in trouble. We have a 
foundation that is going to be created that is going to work on 
education to explain to people not only that we have got a 
problem, but what they can do about that problem.
    You talked today about the rivers that flow into an estuary 
like Puget Sound. They are crucially important and we have to 
make sure that those rivers are properly taken care of. And we 
are working on the watersheds throughout the region; they are 
very important. One of the other problems we are faced with is 
it is such a beautiful area, many people want to move to 
Seattle, want to come into the Puget Sound region, so we are 
faced with a dramatically growing population.
    So we want to work with the Federal Government. I have 
introduced legislation, H.R. 6364, that creates a program 
through EPA. Ron Kreizenbeck worked for EPA and is 
knowledgeable about these problems. Our effort is to create a 
plan at the Federal level to match and work with the State to 
implement the State plan. The State plan is going to be the 
crucial part of this effort, and what we need is the help of 
the Federal Government. We have increased the funding up to $20 
million. The other estuaries, the Great Lakes and the 
Chesapeake, receive more than that, but we are building up our 
effort so that we have the resources to help the local 
governments do the projects that are necessary, and the tribes, 
to get this job done.
    But we couldn't do this without the leadership of these 
three people, and it is an honor for me to have Bill 
Ruckelshaus at my left, who will present, and you have heard a 
lot about him. Kathy Fletcher has also done fantastic work with 
People for Puget Sound. Ron Kreizenbeck is a lifetime EPA 
employee who is on loan to the Puget Sound Partnership. So I 
think we have outstanding people here today as witnesses and I 
am going to turn it over to them and then we can take your 
questions.
    Ms. Johnson. Thank you very much.
    Mr. Ruckelshaus.
    Mr. Ruckelshaus. Madam Chair, thank you for the opportunity 
to make a presentation here before you. I have submitted a 
written statement and will summarize that statement.
    Norm Dicks, as you have mentioned and as Brian Baird has 
mentioned, Congressman Boozman has mentioned, is crucial to 
this whole effort, and he is much too modest about it. The 
Puget Sound Partnership, which was created as a result of a 
year-long study, commissioned by the governor. Norm Dicks was 
on that Partnership. It was really a commission that looked at 
the problems of Puget Sound. He was there for every meeting. He 
would fly back from D.C. and come back here again the next day 
just to make sure that he was present, and his support and 
effort on behalf of the Sound has really been inspirational to 
everybody who lives there.
    This bill that he has submitted, and its counterpart in the 
Senate, is really important for us to do just what you 
suggested be done in your opening statement, and that is for 
the State to step up and make sure that the State is committed 
to doing what is needed all of us need to cooperate on, namely, 
restoring this national treasure and making sure that, as it 
stretches into Canada, is restored there as well. But without 
the State taking a leading role in this, often the whole thing 
would fall to the Federal Government.
    The Federal Government has been very responsive to our 
effort in the region, they have formed a Federal Caucus, and 
essentially what we are asking for in this bill is that that 
effort on the part of the Federal agencies, be ratified by the 
National Congress, be ratified by the Administration and, in 
effect, legitimized that this is a national priority. It is 
something we need to do together; it isn't the Federal or the 
State or the local or even tribal governments' responsibility, 
it is all of our responsibility and we all need to step up to 
what our role is.
    Congressman Boozman suggested that there needs to be 
citizen activity on the part of this, there needs to be 
voluntary actions taken. We have an example of that very thing 
having happened in the development of the salmon recovery plan 
for Puget Sound, which was four years in the making. It 
involved citizens from all over the Sound developing plans for 
their watersheds that were then rolled up into a Puget Sound-
wide plan that was accepted by NOAA in December of 2006.
    So there is a tradition in Puget Sound. Norm mentioned the 
impact of the citizen activity on Lake Washington. There is a 
tradition in that region of citizens taking hold of their own 
place, of ensuring their own future, and that also is 
incorporated into the actions that are being taken by the Puget 
Sound Partnership, which is the new agency created by the State 
as a result of the recommendation of the commission that Norm 
and I served on for a year.
    You have heard about the problems in the Sound, the reasons 
why we ought to proceed. The big problem really is people. We 
have 4 million people living in Puget Sound now. We expect 
another 1.5 million people by 2020, the deadline that has been 
set by the State legislature for restoring the health of Puget 
Sound. The people there now are going to be augmented by 
another 1.5 million, as I mentioned. The newcomers have to be 
housed, we have to figure out how to transport those people 
from place to place. We need to treat their waste. All of that 
puts enormous pressure on the land and on the receiving waters 
of a place like Puget Sound.
    Puget Sound is 16,000 square miles. It includes the 
terrestrial areas all the way from the top of the mountains on 
both sides of the Sound down to the marine areas themselves. 
And pulling all of our efforts together and coordinating the 
effort to restore that ecosystem, make sure it continues to 
provide the prosperity for the people who live there, and at 
the same time allows them to live in a health ecosystem which 
allows the prosperity that that ecosystem underpins to 
continue.
    That is what we are dedicated to doing. Locating this 
office out there will have an enormously beneficial effect on 
our efforts; it puts the Federal Government automatically at 
the table when we are deliberating on what should be done; it 
provides the exact kind of approach that the National Ocean 
Commission, which I was a Member of, recommended, namely, that 
you deal with these problems on a regional basis; it ensures we 
will monitor what we are doing and adaptively manage it when it 
is not achieving its purpose; and it will provide a wise 
expenditure of money going forward.
    So I will now turn it over to Kathy Fletcher.
    Ms. Johnson. Thank you very much.
    Ms. Fletcher.
    Ms. Fletcher. Thank you very much, Madam Chair and Members 
of the Committee. Thank you for asking me to testify here today 
on the importance of stepping up the Federal Government's 
efforts to protect and restore Puget Sound.
    Thank you, Mr. Baird, for your kind words, and Mr. Dicks 
for your leadership and your kind words as well.
    Puget Sound, here is an example of how beautiful it is. 
Puget Sound is indeed a national treasure. Its biodiversity 
rivals that of any tropical rain forest. Our abundant fisheries 
are legendary. Our deep water ports and our strategic location 
on the Pacific Rim are all national, if not international, 
assets.
    But as you have heard, Puget Sound is in crisis. With 
pollution, both historic and current, mismanagement over the 
years of our fish and wildlife, and unchecked development, our 
challenges are huge. In fact, we are at the point now where 
some of our iconic species like the orca whales and the 
legendary salmon runs are officially endangered; our shell fish 
industry has had to retreat to the remaining unpolluted rural 
parts of Puget Sound; 75 percent of our salt marshes are gone; 
many of our bays are superfund toxic sites; and, of course, 
recreation, tourism, human health, and our region's economy and 
quality of life are at stake.
    Now, the State and Federal Government and local governments 
haven't sat idly by while this crisis has unfolded. In fact, 
back in the 1980s, I headed by the State agency that was formed 
to prepare a management plan for Puget Sound. That is when we 
became part of the national estuary program. However, a 
combined failure of all levels of government to implement that 
plan have led to the continued decline of Puget Sound, and that 
is where we are today.
    EPA's role through this time has been really, really 
helpful and important, but, frankly, it has ebbed and flowed, 
and we are at a point where it is really crucial to step up 
that effort, and that is why we are so excited about the 
possibility of setting up an EPA program office to make sure 
that we have this effort with EPA on a steady and constant 
basis for the long term.
    Indeed, what we need is a long-term, sustained, 
accountable, well-funded effort with clear deadlines and a 
laser focus on results. But you are probably wondering, well, 
why does this merit national attention. This map takes a little 
bit bigger view from the previous one and it shows you that, in 
fact, we are an international body of water. You see the City 
of Vancouver there. You see the City of Seattle. You probably 
can't read all that, but that is showing the Strait of Georgia, 
which is all attached to Puget Sound, and unless we are able to 
address this on an international basis, we won't be successful.
    EPA has shown a lot of leadership in getting together 
across that border, but it would be extremely helpful for them 
to play an even greater role in helping us do that.
    We also have a huge Federal role on Puget Sound. So much of 
the land in Puget Sound Basin is actually owned or managed by 
the Federal Government, as well as the normal Federal agency 
activities that you would find in any estuary, like Corps of 
Engineers permitting or U.S. Geological survey studies. Forty-
three percent of our Basin is actually in Federal ownership, 
and that crosses a number of agencies, from the Forest Service 
to the Park Service to the military installations that we have. 
So EPA's role as a coordinator is absolutely essential to our 
success in Puget Sound.
    As I mentioned, a number of our species are also federally 
listed as endangered species, which makes the Federal role and 
responsibility for helping in the recovery of these species 
even more important. And I might add that we have got a lot of 
species waiting in the wings that are in serious decline that 
could find themselves on the endangered species list. We hope 
that won't occur and we think a more effective effort joining 
together of all levels of government and the public is our only 
successful approach in making sure that additional species 
don't find their way to the endangered status.
    This won't be easy. We have certainly paid a lot of 
attention to not only the lessons that we have learned since 
the 1980s in Puget Sound, but all over the Country where people 
are dealing with estuary restoration challenges. But I think 
that one of the keys to giving it our best shot is to equip EPA 
with an increasing level of leadership and responsibility to 
help us sustain this effort over time, so we are very 
enthusiastic about the possibility of an EPA program office.
    Thank you very much, and if you have any questions, I would 
be pleased to address them.
    Ms. Johnson. Thank you very much.
    Mr. Ron Kreizenbeck.
    Mr. Kreizenbeck. Thank you, Madam Chair and Members, and 
thank you, Mr. Baird and Mr. Dicks for your kind comments.
    I am testifying here today as a long-term EPA employee, but 
I am testifying as a member of the Puget Sound Partnership. I 
wanted to make that clear. I am not sure it was in my written 
comments, but I want that on the record.
    I am very encouraged by Congressman Dicks' introduction of 
this bill. I think what it will do is codify and put some 
structure around some things that we have been trying to do for 
many years. This is the third time I have worked with Bill 
Ruckelshaus, so I have been at this for a long, long time. As 
you heard from Kathy and Bill, we have not been sitting idly 
by. But it will take something that has some structure around 
it, I think, to actually keep all of the Federal entities at 
the table and keep them moving, and that is exactly what this 
legislation will do.
    EPA has been leading the effort to coordinate the Federal 
agencies and programs within Puget Sound and in the Partnership 
or the blue ribbon commission that Bill Ruckelshaus chaired 
earlier, we organized a Federal Caucus which includes 12 
agencies that work around the Sound to be able to coordinate 
our input into that process. And that process works very well. 
It relies on the fact that we all know each other, we are used 
to working together, and we want to succeed. In tough times, 
that can break down, as has been demonstrated to me in the 
past.
    We are also working cooperatively and successfully with our 
Canadian colleagues on protecting the ecosystem. I think when 
you look at the map, you see that the U.S. can do an awful lot, 
but if we don't coordinate everything with the Canadians, there 
is much at stake there. Vancouver is experiencing the same 
growth as we are, perhaps more. They have got the 2010 Olympics 
coming up. That ecosystem is going to feel a lot of pressure as 
well.
    In 2000 we structured a statement of cooperation between 
the National EPA and Environment Canada. We have a statement of 
work every year that we work on and we have done good work 
there. Once again, that needs to have continued legs under it 
in order to succeed as administrations come and go on both 
sides of the border.
    As Bill Ruckelshaus said earlier, we have come to realize 
that our current efforts are not sufficient. A Federal office 
of Puget Sound will allow all these current collaborations to 
flourish and strengthen, and I think the law that we have 
before us will do that.
    Last year, the Federal Caucus, with an eye towards how to 
sustain ourselves, went out and interviewed some of the other 
large water bodies and looked at the systems they had in place, 
and we came up with several things which are incorporated in 
the bill you have: the need for intense collaboration and 
commitment among the Federal agencies; the primary mission of 
this office would be to assist the Puget Sound Partnership to 
refine and implement the action agenda; one thing that the 
Federal agencies bring to the table, we have all found, is that 
they have the ability to bring science and information and data 
management, so that is something that would be a strong 
function; and coordinating all of the Federal functions that 
are there. We have discovered among ourselves that having 
different granting cycles, different match requirements and all 
those things, as they grew up in these silos, are difficult to 
work through, but I think this legislation addresses that head 
on.
    In sum, I am delighted that we are doing this and I am very 
optimistic in the Puget Sound. As I said, I have spent 
virtually all of my career working on it and I think the time 
is now. We have the strong leadership of Bill Ruckelshaus and a 
very strong leadership council, good State leadership, good 
Federal participation and good leader. We have the support of 
the tribes, and that is another role that all of us Federal 
agencies take our trust responsibilities very well. So I think 
things are lining up very well and this proposed legislation 
would certainly move us down the track in the right direction.
    Thank you very much.
    Ms. Johnson. Thank you very much. We will now begin our 
first round of questions.
    I would like to pose one, and that is what is the added 
value of an EPA-Puget Sound program office for the Puget Sound?
    Mr. Dicks. I am going to let the experts comment, but that 
is in my statement, and I would ask unanimous consent if I 
could put my full statement in the record.
    Ms. Johnson. Yes.
    Mr. Dicks. Because it addresses that issue.
    We think we need a Puget Sound office in the State of 
Washington to work with the Puget Sound Partnership to 
coordinate this Federal-State effort. We are not talking about 
a great big office, but we are talking about an office that 
would work in conjunction with the state office to implement 
the action plan. Ron knows about this, he has been working on 
it. I will yield to him.
    Mr. Kreizenbeck. Well, as I said, I think codifying the 
work that we have going on is primarily done because we all 
want to succeed and are working together. There is nothing that 
keeps us at the table other than we want to work together and 
we want to succeed. But I think the rest of the parts of this 
legislation that really help us with the funding and 
harmonizing some of the work that we do, the projects that we 
do, is something that is just good government.
    I guess I could tell you horror stories about the things 
that we find that we have funded in one place by one agency and 
another agency comes in and says, you know, we could have done 
that too, and we have some grant funding here but we don't have 
the right match. All of that could be harmonized very well with 
an office where everyone was working together on this, and I 
think that is one of the major benefits of such an office.
    Mr. Ruckelshaus. Madam Chair, if I could try to respond to 
that. I was at EPA when we created the Federal office for the 
Chesapeake Bay. These are very complicated undertakings and 
there are varying levels of government that are involved. 
Various agencies within the government have responsibilities. 
Coordinating all that is very important. Having a focal point 
for the Federal Government's efforts in Puget Sound could be 
very helpful in attaining our goals of cleaning it up. What we 
are asking the Congress to do is to legitimize that Executive 
Branch/Administrative Branch involvement in Puget Sound so that 
everyone gets the message this is an important national 
priority.
    It is really an international priority, as the map, I 
think, demonstrates. And that imprimatur from the Congress and 
from the Administration on what is going on out there is very 
helpful in continuing to get the involvement at the State 
level, at the local level, at the tribal level, in addition to 
the Federal level, so that all of these various agencies 
charged with responsibilities can be coordinated in what they 
are doing. That whole effort is greatly advanced by 
legitimizing this coordinated Federal effort.
    Ms. Johnson. Anyone else? Ms. Fletcher.
    Ms. Fletcher. Madam Chairman, the only thing I would add to 
that is that having observed and worked on this over the 
decades, the EPA level of involvement has come and gone, and 
depending on the priorities of the day or of the regional 
administrator or even the administrator of the entire agency, 
we have seen more or less emphasis. The lack of consistency and 
long-term sustained commitment has really hurt us over the 
years, and I think that this legislation addresses the need to 
get something set up that will last over time. It is being able 
to follow through that really makes the difference.
    Ms. Johnson. Thank you very much.
    Ms. Fletcher, what are the primary stressors facing the 
Puget Sound and what are the challenges to address for these 
factors?
    Ms. Fletcher. Puget Sound is in trouble today because we 
have managed to pollute it, including with toxic chemicals that 
don't go away, and because we have destroyed so much of the 
natural habitats along the shorelines and in the river mouths 
and up the watersheds as well. So the physical places for the 
wildlife to depend on have disappeared.
    What is especially challenging is that a lot of these 
activities continue on to the present moment and, as 
Congressman Dicks mentioned, our population is growing 
dramatically and we are dealing with changes brought on by the 
changing climate as well. So, as we look ahead, we realize that 
we not only have the problems that we have seen build up over 
the past and to the current moment, but we have to actually 
anticipate more stress in the future.
    Number one stress, I think it is pretty well agreed around 
the table that the problems relating to stormwater, the 
developed areas, when you pave over the area and the water no 
longer soaks into the soil, you get both the runoff becomes 
excessive and lots of erosion and scouring of streams, but you 
also shunt all the pollution that happens to be on the land or 
on the streets or in the parking lots or applied at home. All 
those pollutants get washed right down into Puget Sound. So 
tackling that stormwater problem is very difficult but 
absolutely crucial.
    Mr. Dicks. Also regulating the future growth so you can 
have a more sustainable growth, where you have a way for that 
water to be absorbed using bioswales. There are all kinds of 
different technologies that are being utilized today in new 
development, but you have to take that into account. Then we 
have to look at retrofitting the old.
    So it is a very daunting challenge. I agree with Kathy, I 
think stormwater is the big problem, and it is a problem where 
we don't have enough sewer capability. You get a big storm and 
then the storm just washes all that pollution right into the 
Sound, and we have got to work on that. That is a problem 
nationwide, but it is particularly sensitive when you have got 
this body of water that is going to be adversely affected 
because we don't have the capacity to handle it where we don't 
have the necessary storm capacity.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Congressman Dicks, you mentioned that you had increased the 
funding for the National Estuary Program.
    Mr. Dicks. Yes.
    Mr. Boozman. I know that you have tremendous experience in 
this area, and maybe you can help us too, Mr. Ruckelshaus. 
Where should the funding be?
    Mr. Dicks. Well, it isn't going to ever help much if it is 
$600,000 per estuary, okay? And that is what we are basically 
saying, is that Puget Sound has been ignored while we looked at 
the Chesapeake and we looked at the Great Lakes and the 
Everglades. Those have been the three great restoration 
efforts, and the Administration agrees with us on this. We have 
to step up now.
    Now, I want to do this for a lot of other estuaries in the 
Country. I think it is a national priority that we expand this 
program and give them more help. But the reality is when Bill 
Ruckelshaus was the administrator of EPA, we had $5 billion or 
$6 billion a year during the Nixon administration to send out 
to the local governments to do the wastewater treatment plants 
and the sewer projects and all of this stuff. Do you know what 
we have now? $250 million. All the rest of it is loan money, 
and the Administration is cutting back on the amount of money 
that is available for loans.
    Christine Todd Whitman did a study. I think it is around 
$388 billion backlog in this Country in wastewater treatment 
facilities. Bill knows all this better that I do, but this is a 
national issue and it rests right here in this Committee, and 
we on the Appropriations Committee, the programs that we have 
had in the past are gone, so we don't have the sources. It is 
just like transportation. We have got to find resources to deal 
with these problems.
    Bill, do you want to comment?
    Mr. Ruckelshaus. Well, we have a need for money, there is 
no question about it. The money that Norm mentioned that was in 
the sewage treatment plant grant program that peaked out at 
about $5 billion in the middle 1970s and has since been cut 
back was aimed at addressing the major un-sewered parts of the 
Country that needed sewage treatment. The States put up 15 
percent of the money and the local governments only ended up 
putting up 10 percent of the money.
    That period is gone, we are not going to see that kind of 
money again, we don't think, at the local level, so the local 
governments are paying an enormous sum of money. Places like 
Seattle will spend $500 million this year on sewers and 
treatment of stormwater, the problem that both Norm and Kathy 
have mentioned, which is a huge problem in our cities. That is 
part of what we need to step up to.
    This is a much narrower request we have here, but the 
request is the structural coordination of the Federal effort, 
regardless of how much money is being spent, as well as the 
State effort, so that whatever money we spend we can ensure 
that it is allocated as wisely as possible and that we get the 
biggest bang for the buck. The problem is now we have countless 
grant and other kinds of programs aimed at various aspects of 
Puget Sound health, and they are not well coordinated, and that 
is the job of this new agency whose Leadership Council I chair_
to try to bring better coordination to that. And having a 
single place we can go to get Federal understanding, 
coordination, and help will be enormously beneficial to the 
overall effort.
    Mr. Boozman. Okay. So we kind of have got two things going 
on: we have the proposal for the new Puget Sound in the center 
of it is the Chesapeake program----
    Mr. Dicks. Right. Exactly.
    Mr. Boozman.--and then also the current program, the NEP 
program. And I guess what I am wondering--I understand your 
rationale and arguments regarding the need for the Puget Sound. 
The NEP program, as we are looking at it, do we need to 
significantly restructure it? We have talked about money and 
things. Do we need to redo that program?
    Mr. Dicks. My view is that this estuary program is a 
minimal approach. This is just giving a small amount of money 
to each of these communities. They are working. They need more 
resources. If they are going to do anything in Tampa or Long 
Island or San Francisco, they are going to have to have more 
sources as well. I think this is a national issue. I think we 
ought to go back to what we had before, especially in the rural 
areas.
    Seattle and King County can come up with some big money 
because we have got the people, but in the rural areas you 
can't believe all the STAG grants that come in, State Tribal 
Assistance Grant requests come into my committee, and I can 
only fund a small fraction of them. So we need a more dramatic 
effort here.
    You can double or triple the money in this estuary program, 
and it would still be a minimalist approach. It is just not 
enough to do very much with. You can't really get anything 
really going, and that is why what we are trying to do is 
increase the Federal investment and the State investment. Even 
then it is going to take years to really make a difference 
because of how expensive it is to deal with things like 
stormwater over this huge area. So we are doing the best we 
can, but we are nowhere near we need to be.
    Mr. Boozman. Thank you very much, Madam Chair. I appreciate 
the testimony. This is an excellent panel.
    Mr. Ruckelshaus. Let me make one other point, and that is 
whatever money we have to spend----
    Mr. Dicks. Let's spend it wisely.
    Mr. Ruckelshaus.--we have got to spend it as efficiently 
and effectively and wisely as we can. Putting this structure in 
place that allows that coordination to take place, that 
encourages it to take place as a result of congressional action 
is very important in getting the money spent wisely. We have 
identified these problems, they are real ones and they are not 
going to go away just by looking at them; we have got to do 
something about them, and some of them are going to take a 
considerable amount of money, as Norm has mentioned. But you 
are going to be held accountable, we are going to be held 
accountable for the expenditure of that money in a wise way, 
and that is why this request that we have made I think really 
makes sense.
    Ms. Fletcher. If I could just add a brief point. I think 
your question is a good one about the National Estuary Program. 
My comment about it would be that at the level it is currently 
operating, it supports planning, but it doesn't support 
actually getting the job done, and that is really the issue. 
That is the issue we are dealing with in Puget Sound. We have 
been planning and planning and planning, but actually getting 
the job done and, of course, getting the job done is more 
expensive than doing the studies or doing the planning.
    Ms. Johnson. Mr. Baird.
    Mr. Baird. I want to again commend the panel for 
outstanding work. I should also recognize, for the benefit of 
my colleagues, the people you are seeing here today are behind 
them--not figuratively here, but back home--the county 
commissioners, the city councils, the mayors, the businesses, 
the tribes, we have broad, comprehensive buy-in on this effort. 
This Puget Sound Partnership has really put together people who 
really believe in this.
    But as Ms. Fletcher was just saying, they need the 
resources to do it. There is absolute commitment, and this is a 
comprehensive, coordinated and collaborative effort. One of the 
things I commend our colleagues on is, as you look at the bill 
that Congressman Dicks has put before us, there are, as Ms. 
Fletcher pointed out, there are actual substantive measures--
and Mr. Ruckelshaus alluded to--to actually do something, 
Federal matching grants on a host of measures.
    Do we have any sense--and you may not have this data--do we 
have a sense of, if some of these measures were implemented, 
what kinds of reductions in pollutants we might see or what 
kinds of improvements in water quality, and what kind of 
tangible outcomes we think will result from this?
    Mr. Ruckelshaus. That is a really good question and it will 
be part of the action agenda which we are now preparing to 
measure and monitor exactly what progress we are making as a 
result of the steps that we are taking, and we don't have that 
monitoring data now. We have some data and we have some that 
has been collected by various programs, again, uncoordinated 
depending on the nature of the program; and we need a 
comprehensive, system-wide monitoring process that will tell us 
what are the--in the first place, we need the science to tell 
us--and we have that underway--what are the indicators of Puget 
Sound health that we need to track.
    We are committed to achieving those indicators by the year 
2020 under the State statute, and each of the individual 
agencies, including Federal agencies, have some portion of the 
responsibility for achieving the results of those indicators so 
we provide benchmarks along the way as to whether or not they 
are making progress. Kathy's remarks about implementing these 
plans are absolutely right. It is one thing to put the plan 
together; making it work and implementing it is really the 
tough part.
    So that is the process we are using to ensure that we both 
know where we are going, because we have the appropriate goals 
represented by these indicators, and then we have benchmarks 
along the way that will tell us whether we are getting there; 
and we are committed to reporting that not only to the agencies 
involved, but to the public as well.
    Mr. Baird. This is certainly something I know from 
experience- that Congressman Dicks has been a stalwart advocate 
for in the Congress. He is not averse to investing Federal 
dollars in worthwhile projects such as this. But every time I 
have been around Norm he asks ``what is the outcome?'' He 
always wants to know what we are getting for our dollar.
    Mr. Dicks. Well, just like you and I did on the Willipaw 
with our Spartina program over six years, we have this terrible 
invasive specie. These are estuaries, too. I mean, the Willipaw 
and Grays Harbor, they need help too. I mean, this truly is a 
national concern, I think.
    Mr. Baird. One thing we haven't talked so much about, too, 
is the economic impact for the region of this resource. We 
speak about the environmental impacts, but the economic impact: 
a very vibrant and productive shellfish industry, for example, 
crabs, clams especially, oysters, gooey ducks. These are multi-
million dollar industries that employ countless people; a 
commercial fishery, the recreational aspects.
    Saving this Sound is going to return economic benefits, it 
is not just about let's protect an estuary because of its 
environmental impacts. That alone would be worthwhile, but a 
tremendous portion of our State's economy depends on a healthy 
Sound. Imagine a tourism campaign that said visit beautiful 
Seattle, see the dead Puget Sound. It is not going to resonate 
well and we are not going to let that happen.
    Ms. Fletcher?
    Ms. Fletcher. I think, to add some hope to the conversation 
about all the problems that we are facing, your question about 
what result can we expect, we can actually look at the positive 
things that have been done and see some success already. We 
know, when we get out there and we actually restore damaged 
habitat, that the small salmon come in there the very next day 
to use that habitat; and we know, when we clean up the toxic 
sites, which we have done some considerable amount of, that we 
get those toxins out of the system, out of the food Web, and 
that is ultimately what is going to save the whales, for 
example, which are currently so contaminated that if a whale 
dies and washes up on the beach, you have to dispose of it at a 
hazardous waste facility.
    So we know, based on the things that we have managed to do, 
that we get results and often those results are very immediate 
in terms of what the ecosystem shows us.
    Mr. Baird. You know, Norm--and my time is just about up--
your comment on what we have done with your leadership in 
Willapaw Bay, this is a model for the Country, really. We had 
an invasive species, Madam Chair, of Spartina grass, a non-
native grass that was threatening to take over this magnificent 
and pristine estuary. We have beaten this, virtually. We hope 
to virtually knock this grass out this year. That almost never 
gets achieved.
    And as Kathy just mentioned, we are seeing salmon come 
back, migratory shore birds coming back very quickly. These 
systems can be restored. If we stop beating them up, they can 
be restored. It is the one thing that I haven't seen--and I 
will have to read the bill more carefully, but I am not sure we 
have done enough to address the invasives issue in this 
legislation. Perhaps it is in there and I am just missing it, 
but it is something we want to make sure we look at, because 
Spartina and others are looking at possibly----
    Mr. Dicks. Well, we certainly have the Fish and Wildlife 
Service in. That is the agency we used. They can be there to 
help us.
    Mr. Baird. Great. Thank you again, Norm, for your 
leadership, and all the same to these wonderful individuals.
    I yield back my time.
    Ms. Johnson. Thank you very much.
    Mr. Kagen.
    Mr. Kagen. Thank you, Madam Chairman, for holding this very 
important hearing. It is nice to know that other areas of the 
United States aside from Wisconsin care about clean water. I am 
very happy to hear, as well, that Congressman Baird is going to 
promote his area for tourism. I just can't afford the gasoline 
to drive out there right now.
    Mr. Dicks. That is why you should have a hearing. I didn't 
say that.
    Mr. Kagen. My question has to do with what portion, if this 
study has been done, and elements will be measured and 
monitored. I come from the philosophy that you cannot monitor 
something unless you can measure it. So I think it is very 
essential that you decide what it is you are going to be 
measuring so we can actually monitor your progress. But more to 
the point, what portion of the Puget Sound pollution or 
unhealthy water and conditions are contributed by activities in 
Canada?
    Mr. Ruckelshaus. Well, the map is no longer there, but the 
map on the wall showed what portion of Puget Sound actually 
goes up into Canada. There is a considerable portion of it up 
there.
    Mr. Kagen. But you also understand that the runoff occurs 
where there is development. I don't know how well developed 
Canada is in that location.
    Mr. Ruckelshaus. The City of Vancouver is huge.
    Mr. Kagen. So is there a study that shows what portion of 
the contamination of the waterway, the ill health of the area 
is due to Canadian activities? The reason I get to that 
question is unless you have that study, I don't know how much 
of this funding really should be paid by Canada as well.
    Mr. Ruckelshaus. Canada is addressing the issues that 
involve Puget Sound and the Strait of Georgia the same as we 
are. We have had communications with them and over the past 
several decades there have been a lot of communication with the 
Canadians about their contribution to the problems of our 
shared waterways. We have had preliminary conversations with 
them. We have a conference coming up next fall with the 
Canadians on this very issue.
    Our determination is to really get our own house in order, 
make sure that we understand our own contribution to pollution. 
We have plans to abate that and to get at it before we go and 
ask our neighbors to the north to do their part and join us. We 
have already done that; it is not as though these conversations 
haven't gone on. They are making a contribution to the problem 
and they recognize they have got to do things to alleviate it, 
the same as we are.
    Mr. Kagen. So on page 9, lines 3 through 6, where you 
indicate, Mr. Dicks, that no more that 50 percent of the 
expense will be paid by the Federal taxpayers, we are not going 
to be cleaning up Canadians' mistakes, is that right?
    Mr. Dicks. No, no. That will be used in our State waters 
and in Puget Sound, and the Canadians are working on their 
problems. They have problems too. But, you know, when you look 
at it, it is really kind of bay-by-bay, community-by-community. 
Some of the rural areas are still pristine, which is wonderful, 
but in the big urban areas, that is where the problems are. So 
we are working on the toxics; we are working on the chemicals; 
we are cleaning this up. But it is a question of resources 
about the speed in which we can do this, and we have never had 
a real comprehensive plan.
    One of the things that I insisted on in this effort was 
that there is some science to this. We have to be able to show 
people that there is a scientific underpinning for what we are 
doing, and we have had a plan going on Hood Canal, which is 
part of Puget Sound, for four years and that has been a 
science-driven effort, and we have learned a lot and it is very 
complicated; and you need models so that you can look at all 
the inputs and outputs into the body of water, how the tides go 
in and out and how the rivers come into it. And there has been 
science done, but it has never been put together 
comprehensively into a database for Puget Sound.
    Mr. Kagen. I appreciate that.
    Mr. Dicks. And that needs to be done. That is part of this 
effort, so we will know what we are doing.
    Mr. Kagen. I appreciate that.
    Mr. Dicks. And we can always get the Canadians to do more. 
We are going to push on that.
    Mr. Kagen. I don't represent anyone in Canada, but I 
appreciate the fact that what you are doing is really beginning 
to establish a precedent that others will follow throughout the 
Country and perhaps in Canada as well, and it might be very 
well to just lay down the fundamental principle that your 
freedom to pollute your waterways ends where our waterways 
begin, and apply our values overseas, in this case not that 
far, to Canada. But we may as well take that fundamental 
principle and apply it to China some day soon as well.
    I thank you and I yield back my time.
    Mr. Hall. [Presiding] Thank you, Mr. Kagen.
    I am your new Chair. I apologize for missing your 
testimony; I was triple-booked on Committees. But may I ask 
just one of Mr. Ruckelshaus, excuse me.
    Mr. Ruckelshaus. I have trouble with it myself, Mr. 
Chairman.
    [Laughter.]
    Mr. Hall. Thank you. You are most kind.
    My district is home to the Hudson River, which itself is a 
tidal estuary, and, as has been noted, estuaries are a nexus of 
salt water and fresh water bodies that are a unique habitat for 
aquatic life and have special environmental significance. 
Obviously, the balance between salt water and fresh is 
important. I am curious to hear the thoughts you may have, or 
others on the panel, as to how they feel the goals of the NEP 
would be impacted by salt water intrusion as a result of 
climate change. Have you contemplated such impact?
    Mr. Ruckelshaus. We are taking into account the impact of 
climate change in the Puget Sound region. For instance, there 
are global problems involving acidification of the ocean which 
are quite serious and have not really been focused on very much 
in the whole climate change debate. But the question of salt 
water intrusion and the contribution that climate change might 
make to it can be very important in some parts of the world 
where that phenomenon is taking place.
    The problem in our area, we have a climate change panel at 
the University of Washington made up of scientists who believe 
the real problems we are going to have are the melting of the 
glaciers which supply so much water in the late spring and 
early summer, when we need it. As those glaciers recede, we 
will find that we have more water when we don't need it, in the 
winter and early spring, and less when we do, in the summer and 
late spring.
    So we are going to need to look at the possibility of 
storing water for those times when we are short of it. We need 
it to have adequate water for salmon to spawn, for instance. It 
is very important in the springtime and, as those eggs mature 
and hatch, throughout their spawning season. So that, plus 
having adequate drinking water, having water for other purposes 
in the area is going to be essential for us, and we are looking 
at all of these things, including climate, that affect the 
ecosystem in the area and trying to take steps to ensure that 
they are addressed.
    Mr. Hall. Thank you, Mr. Ruckelshaus.
    Ms. Fletcher, would you care to comment?
    Ms. Fletcher. Yes, thank you. In addition, one thing we 
know about our changing climate is that the sea level is rising 
and that if we are going to anticipate that, that we need to be 
very careful about restoring natural habitats along our 
shorelines, because we previously have kind of taken a 
development approach that we can develop right up to the edge 
of the water and then, of course, as the sea level rises, the 
need to fortify those developments causes additional habitat 
loss, which is a cascading problem for salmon and other 
species.
    So part of the habitat restoration strategy has to make 
sure that we have got a healthy ecosystem to start with, as 
that sea level rises and we have a little bit of a margin of 
error to work with, because we have already started to see 
these changes occur in Puget Sound, so one fundamental piece of 
what has to happen now is to anticipate these changes and to 
provide a margin of error, and that hasn't been typically what 
we have done in the past.
    Mr. Hall. Mr. Dicks, do you have a comment to add?
    Mr. Dicks. Well, I would just say briefly that I think 
climate change, as former Vice President Gore has said, is the 
issue of our time. As Chairman of Interior and Environment, we 
have held hearings about what is happening on Federal lands, 
and we know that there are manifestations already. The glaciers 
are melting; we are seeing the fire season is a month longer on 
both ends. These fires are becoming horrific. The fire budget 
of the Federal Government has gone from 13 percent fire in 
Forest Service to 49 percent. We are now seeing drought. We are 
seeing bug infestation. The seas are rising. I mean, this is a 
serious issue that this Committee--and when you think about all 
the population in this Country that lives on the coast, what is 
going to happen to Florida?
    I mean, this is our great challenge in our lifetime, I 
believe, and we have created a new institute at U.S. Geological 
Survey to look at what happens to wildlife, the impacts on 
wildlife, which I think are going to be tremendous. We have 
already seen the problems with the polar bear. This is going to 
be one of many instances around the world. This isn't just a 
U.S. issue, this is a worldwide issue where wildlife is going 
to be adversely affected. So we have to roll up our sleeves.
    We are trying to get Puget Sound under control, but the 
manifestations of all of this for everyone--and I commend what 
you have done on the Hudson. I think you guys have tried to do 
a good job there, and I am sure you need more resources to do 
it. Long Island, our colleagues come to me and talk to me about 
that, and all these estuaries.
    I am just going to say one thing Brian and I worked on. On 
the Nisqually Delta we took out all the dikes that agriculture 
had put in, and that one thing increased the amount of estuary 
on Puget Sound by 30 percent, one activity, because we have 
done all these things over the years. Now we have to reverse 
this and take out these dikes and get the salt water and the 
fresh water working again together to create habitat for the 
fish and salmon.
    Mr. Hall. Mr. Kreizenbeck, I don't want to leave you out.
    Mr. Kreizenbeck. Thank you, Mr. Chairman. I think one of 
the things, bringing it back to the legislation here, is that 
having a strong Federal office that can work across all the 
agencies to harmonize the adaptation strategies that we have to 
augment the action agenda that the State is developing will be 
critical. There is work going on on that now in all the 
agencies and we are sharing strategies, but I think making sure 
that all of those are vetted so that there is a harmonized way 
of dealing with all of the Federal tools we have is something 
that is really critical, and we are making some progress on 
that.
    Mr. Hall. Thank you very much. Thank you all for your 
testimony and for being here today with us.
    Mr. Baird. Mr. Chair?
    Mr. Hall. Mr. Baird.
    Mr. Baird. If I may, just for the record, Mr. Ruckelshaus, 
you mentioned ocean acidification. You will be pleased to know 
that the day before yesterday our Science and Technology 
Committee passed out a bill by Tom Allen, which I wrote along 
with Jay Inslee and Mr. Allen, to specifically address ocean 
acidification, which, as you know, is a big problem.
    Mr. Chair, I would also just like to note for the record 
that we are all familiar with how colleagues tend to come and 
testify for five minutes and head out, and it is indicative of 
Chairman Dicks' absolute commitment to this that he did not do 
that; he stayed for the entire process, cleared his schedule so 
he could be here to edify us and to advocate for this important 
legislation. It is admirable and typical of what our dean and 
our chairman does.
    Thank you, Norman. Thanks to all the witnesses.
    Mr. Hall. I would echo that statement about Mr. Dicks. And 
I would have been here sooner myself had I not been at the 
Select Committee on Energy and Independence in Global Warming, 
which is dovetailing, I hope, with the work of this Committee.
    Thank you again to the members of our first panel.
    We would like now to welcome our final panel. The first 
witness is Mr. Craig Hooks, the Director of EPA's Office of 
Wetlands, Oceans, and Watersheds. Next is Mr. David Kennedy 
from NOAA. He directs the Office of Oceans and Coastal 
Resources Management. Mr. Richard Ribb will testify next. Mr. 
Ribb is the Director of the Narragansett Bay Estuary Program 
and will be speaking on behalf of the Association of National 
Estuary Programs. Following Mr. Ribb is Mr. Jeff Benoit from 
Restore America's Estuaries. And our final witness of the day 
is Mr. Michael Carlin from the San Francisco Public Utilities 
Commission.
    Your full statements will be placed in the record. We ask 
that you try to limit your oral testimony to about five minutes 
as a courtesy to other witnesses. Again, we will proceed in the 
order in which the witnesses are listed in the call of the 
hearing.
    Mr. Hooks, you are now recognized.

     TESTIMONY OF CRAIG HOOKS, UNITED STATES ENVIRONMENTAL 
 PROTECTION AGENCY, DIRECTOR, OFFICE OF WETLANDS, OCEANS, AND 
 WATERSHEDS, WASHINGTON, D.C.; DAVID KENNEDY, NATIONAL OCEANIC 
 AND ATMOSPHERIC ADMINISTRATION, DIRECTOR, OFFICE OF OCEAN AND 
   COASTAL RESOURCES MANAGEMENT, UNITED STATES DEPARTMENT OF 
      COMMERCE, WASHINGTON, D.C.; RICHARD RIBB, DIRECTOR, 
 NARRAGANSETT BAY ESTUARY PROGRAM, NARRAGANSETT, RHODE ISLAND; 
JEFF BENOIT, PRESIDENT, RESTORE AMERICA'S ESTUARIES, ARLINGTON, 
  VIRGINIA; AND MICHAEL P. CARLIN, ASSISTANT GENERAL MANAGER, 
 WATER ENTERPRISE, SAN FRANCISCO PUBLIC UTILITIES COMMISSION, 
                   SAN FRANCISCO, CALIFORNIA

    Mr. Hooks. Thank you and good afternoon, Mr. Chair and 
Members of the Subcommittee. I am Craig Hooks. I am the 
Director of the Office of Wetlands, Oceans, and Watersheds in 
the Office of Water at the U.S. Environmental Protection 
Agency. Thank you for the opportunity to discuss EPA's National 
Estuary Program, one of the Federal Government's premier 
flagship ecosystem restoration and protection programs.
    We have long known that estuaries are among the most 
ecologically viable and productive habitats on earth. Estuaries 
function as the feeding, spawning, and nursery grounds for many 
marine and terrestrial finfish, shellfish, birds and plants, 
supporting unique communities of plants and animals that are 
specifically adapted for life at the margin of the sea. Coast 
and estuary regions support a disproportionate large share of 
the Nation's economic output and population as well.
    The National Estuary Program was established by Section 320 
of the Clean Water Act amendments of 1987 with a mission to 
protect and restore nationally significant estuaries. This 
mission includes protecting and restoring water quality and 
habitat.
    The NEP currently includes 28 programs located along the 
Atlantic, Gulf of Mexico, and Pacific Coast, and their study 
areas range in size from 23,000 square miles to 90,000 square 
miles. Although each NEP is unique, they have many things in 
common and owe much of their success to four principles: a 
focus on the watershed, collaborative problem-solving, 
integration of good science with sound decision-making, and 
public participation.
    EPA supports these 28 programs by providing guidance, 
technical and financial assistance, and periodic program 
evaluations.
    One of the priority problems common to all 28 NEPs is 
habitat loss and degradation.
    Since 2000, the NEPs and their partners have protected and 
restored over 1.1 million acres of habitat.
    The impressive work of the NEPs does not come without cost. 
During the years 2003 through 2007, the 28 NEPs received a 
total of $85.3 million in Clean Water Act Section 320 
appropriations. During those same years, the NEPs used these 
Federal dollars to leverage $1.32 billion, or approximately 
$15.50 for every $1.00 in Clean Water Act Section 320 funds. 
Over 95 percent of these leveraged resources were invested on 
on-the-ground activities like habitat restoration and 
stormwater management.
    NEPs play a substantial role in supporting the core Clean 
Water Act programs such as stormwater permitting, TMDLS and 
non-point source grants.
    An important issue facing the NEPs and other coastal 
ecosystems is the risk from the consequences of climate change.
    To assist the NEPs in building capacity for local 
leadership and expertise in adapting to the effects of climate 
change, EPA recently launched the Climate Ready Estuaries 
Program. This new effort works with the NEPs and other coastal 
managers to assess climate change vulnerabilities, engage and 
educate stakeholders, develop and implement adaptation 
strategies, and share lessons learned with other coastal 
managers.
    The success of the National Estuary Program rests in part 
on the collaborative nature of the program and its emphasis on 
the watershed approach to protect and restore coastal and 
estuarine resources.
    In conclusion, the NEPs are a critical part of EPA's Clean 
Water Act strategy. They are effective, efficient, and 
collaborative, and they have demonstrated the value of 
partnering to achieve environmental results.
    Mr. Chair and Members of the Subcommittee, I appreciate the 
opportunity to speak with you today about the National Estuary 
Program. This concludes my testimony. I would be happy to 
answer any questions that you may have.
    Mr. Hall. Thank you, Mr. Hooks.
    Mr. Kennedy, you are now recognized for five minutes.
    Mr. Kennedy. Good afternoon. Thank you for the opportunity. 
I am David Kennedy, NOAA Director of the Office of Ocean and 
Coastal Resource Management. My testimony is going to focus on 
the health of estuaries in the United States, NOAA's role in 
protecting and restoring estuaries, and NOAA's coordination 
with the Environmental Protection Agency's National Estuary 
Program.
    The coastal environment is one of our Nation's most 
valuable assets. It provides foods and livelihood for people 
and essential habitat for thousands of species of marine 
animals and plants. A healthy coast is vital to the United 
States economy. Marine commerce and transportation, commercial 
recreational fishing, and tourism all depend on a vibrant 
coastal environment. Our coastal areas contain the Nation's 
most diverse, valuable, and at-risk habitats. As more of the 
United States population becomes concentrated, as you have 
already heard, along the coastline, our coastal ecosystems are 
being stressed. Habitat loss, erosion, pollution, harmful algal 
blooms, oxygen-depleted dead zones are all on the rise. The 
challenge to the Nation and to NOAA is to balance our use of 
coastal and ocean resources today with the need to protect, 
preserve, and restore these priceless realms for future 
generations.
    The coasts are home to the Nation's estuaries, unique 
environments that are one of the most production on earth. You 
have heard some of this already. Production regions, however, 
have experienced a decline in health. National Estuarine 
Eutrophication Assessment, which is a joint report released by 
NOAA, EPA, and the Department of Agriculture in 2007, found 
that the majority of estuaries assessed show signs of 
eutrophication or nutrient enrichment. Most of the effects were 
found to be highly influenced by human-related activities 
attributed to coastal human populations.
    The report found that overall eutrophic conditions were not 
significantly different, neither worse nor improved, between 
the early 1990s and early 2000s. However, the report predicts a 
worsening of conditions by 2020 in 65 percent of estuaries and 
improvement in 20 percent.
    NOAA has several programs that work to protect, observe, 
and restore coastal and estuarine habitats, four of which I 
would like to talk about briefly today. First, the National 
Estuarine Research Reserve System. Recognizing the value and 
importance of estuaries and the dangers facing them, Congress 
created the National Estuarine Research Reserve System, or 
NERRS, in 1972. The NERRS is a network of protected areas 
established for long-term research, education, and stewardship. 
There are currently 27 sites in the network. This partnership 
program between NOAA and the coastal States protects more than 
1.3 million acres of estuarine land and water which provide 
essential habitat for wildlife; offer educational opportunities 
for students, teachers, and public; and serve as a group of 
living laboratories for scientists.
    Second is the Coastal Zone Management Program. The national 
Coastal Zone Program is a voluntary partnership between NOAA 
and the U.S. coastal States and territories, and it is 
authorized by the Coastal Zone Management Act of 1972. Thirty-
four coastal and Great Lake States, territories and 
commonwealths have approved coastal management programs, and 
together these programs provide for the protection and 
management of more than 99 percent of the Nation's 95-some 
thousand miles of ocean and Great Lake coastline.
    Third is the Coastal and Estuarine Land Conservation 
Program, CELCP. It was created in 2002 for the purpose of 
protecting important coastal and estuarine areas that have 
significant conservation, recreation, ecological, historical, 
and aesthetic values, or that are threatened by conversion from 
their natural or recreational states to other uses. To date, 
NOAA has worked with State and local governments to administer 
more than 150 CELCP grants. Twenty-seven coastal States protect 
more than 35,000 acres.
    Finally, Community-Based Restoration Program began in 1996 
under the authority of Fish and Wildlife Conservation Act. The 
Magnuson-Stevens of 2006 further codified the program's mandate 
to work with communities to conduct meaningful, on-the-ground 
restoration of marine, estuarine, and riparian habitat. The 
program provides technical and funding assistance to local, 
regional, and national partners to restore coastal and 
estuarine habitats. Projects range from wetland restoration to 
small dam removal, and since 1996 more than 30,000 acres of 
habitat have been restored with the help of national-regional 
partnerships and participation of hundreds of communities and 
individuals.
    The success of NOAA's programs are built on the strength of 
its many national and regional partnerships. Several partners, 
including the EPA's National Estuarine Program and Restore 
America's Estuaries, are dedicated to restoration and 
conservation of estuary habitats. NOAA's collaboration with NEP 
includes educational activities for teachers and students, 
local training programs, working with State Coastal Zone 
Management plans, CELCP acquisitions that compliment and 
support NEP goals and efforts of a new community-based 
restoration partnership with the Association of National 
Estuary Programs.
    NOAA has a good working relationship with the NEP both at 
the national level and local level, but collaborations can 
always be strengthened, and NOAA is going to continue to reach 
out to the NEPs to coordinate and issue important estuaries.
    Thanks again for the opportunity. I will conclude there; I 
know I have just passed my time.
    Mr. Hall. Thank you, Mr. Kennedy.
    Mr. Ribb, you are now recognized.
    Mr. Ribb. Thank you, Mr. Chair, Ranking Member Boozman, and 
Members of the Committee. My name is Richard Ribb. I am 
Director of the Narrangansett Bay Estuary Program and I also 
serve as the Chair of the Association of National Estuary 
Programs, an umbrella for all 28 NEPs. I would like to express 
the appreciation of all those programs for our opportunity to 
be here today.
    As you heard from Mr. Hooks, there is a lot of value to our 
estuarine systems and there are a lot of challenges facing 
them. I think my job here is more to talk about the role of the 
National Estuary Programs in addressing those challenges.
    The National Estuary Program was created by Congress in a 
farsighted piece of legislation. Senator John Chafee from my 
area was one of the guys who was involved in developing that 
back in the mid-1980s, and the unique thing about it is that it 
required an inclusive stakeholder approach to dealing with 
problems in an estuary.
    There has been strong and sustained congressional for the 
National Estuary Program and it has allowed the program to be a 
front-line response to the pressures on our coastal ecosystems 
for over 21 years. One of the successes of the program 
certainly is due to its non-regulatory approach. It provides a 
neutral forum for people to discuss issues and come to 
agreement on solutions. Many interests are brought together to 
create long-term management plans called Comprehensive 
Conservation and Management Plans, or CCMPs. All of the 
programs have gone through this process of creating these 
stakeholder-based plans.
    I did want to emphasize that we are now in the 
implementation phase and the programs are engaged in 
implementing those plans, revising them as necessary.
    The NEP takes a comprehensive ecosystem approach to 
addressing a wide range and takes on a number of different 
roles in working with partners to work on the habitat 
restoration, protecting water quality, watershed management 
techniques. The program has pioneered working on strategies for 
invasive species, harmful algal blooms--the list goes on--and 
reflects the interrelated nature of these problems.
    Through the two decades of experience, the NEP has served 
as an effective and adaptive model for developing solutions to 
complex environmental problems. I would also like to emphasize 
a lot of the lessons learned for the program are not something 
that is for the use only in coastal programs that are interior 
and other watersheds. There is a tremendous amount of lessons 
learned that can be transferred.
    The program works, I would just like to remind you, on what 
we call operating principles. The stakeholder-based approach. 
These plans are a collective stakeholder vision and solutions 
for the estuaries. A collaboration with partners is the 
cornerstone of how these programs work. The collaborative model 
provides a significant opportunity to leverage local-State 
foundation, private sector funds. I think one of the 
interesting and important parts of the NEP is the private 
sector involvement in developing these solutions. We work to 
increase the scientific understanding of key issues like 
climate change, like sea level rise, shoreline development. We 
work to ensure that our management decisions are based on good 
science and have developed techniques to bring together both 
coastal managers and the research community to bring those 
discussions to some applied science solutions.
    As I mentioned, we provide a neutral forum. Another unique 
aspect is trying to find meaningful opportunities for public 
involvement, whether it is through actual engagement in 
activities like volunteer monitoring or whether it is really 
trying to keep people informed and engaged in what is going on. 
I would also like to emphasize that NEPs are community-based 
networks. We have now a significant history of working at the 
local level. We have built trust. We have good relationships 
with the working partners, and part of that allows us to, I 
think, help to be a delivery mechanism for many of the Federal 
programs that our partners here at the table are engaged in.
    In my written testimony are examples of history of 
environment results. We have reduced nitrogen inputs to 
estuaries, have worked with partners to restore habitat. Like I 
said, if you refer to the written testimony, there are many, 
many examples in there.
    In terms of reauthorization of the program, we think it is 
important to retain the stakeholder-based non-regulatory 
approach. We think it is important to ensure that the Section 
320 funding that is authorized under Congress is directed to 
those local implementation activities. That is where the 
results are being made.
    We would like to ensure that our Federal partners look at 
these local priorities that have been set and use that work, as 
opposed to when they are instituting new institutions, new 
initiatives, look our local priorities.
    I have run out of time. I thank you all for the opportunity 
to speak to you and I would be glad to answer any questions.
    Mr. Hall. Thank you, Mr. Ribb.
    Mr. Benoit, you are now recognized for five minutes.
    Mr. Benoit. Thank you. Good afternoon, Chairman Hall, 
Ranking Member Boozman, and Members of the Subcommittee. I am 
Jeff Benoit, President of Restore America's Estuaries. I am 
pleased to be here today to discuss our comments regarding 
coastal and estuarine protection and restoration, specifically 
reauthorization of the National Estuary Program.
    We strongly urge the reauthorization of this program. 
Before I present our recommendations, I would like to provide 
you with a little background about our organization, Restore 
America's Estuaries.
    Our mission is to preserve the Nation's network of 
estuaries by protecting and restoring the lands and waters 
essential to the richness and diversity of coastal life. We are 
a national, non-governmental alliance of 11 community-based 
organizations. You previously heard from Kathy Fletcher, the 
Executive Director of People for Puget Sound, one of our member 
organizations.
    Restore America's Estuaries is results oriented. We join 
with many partners and local volunteers to conduct restoration 
projects with lasting benefits. Since our creation, we have 
invested over $30 million in local restoration projects, 
restored more than 56,000 acres of estuarine habitat, we have 
mobilized more than 250,000 volunteers, and we convene the 
largest biennial national conference for the coastal 
restoration community.
    My written testimony includes detailed information about 
the importance of estuaries and the growing threats be they 
face, so I will only mention one new aspect of estuaries that 
is emerging as a clear issue.
    In 2006, Restore America's Estuaries convened a panel of 
experts to help us understand the economic and market value of 
coasts and estuaries. The culmination of their work is the 
report entitled The Economic and Market Value of Coasts and 
Estuaries: What's At Stake. I have provided you a copy of the 
executive summary of that report. The report clearly shows 
that, yes, the economy is linked to the environment.
    Now let me turn my attention to the National Estuary 
Program.
    Congress was farsighted in establishing the National 
Estuary Program in 1987 because it directed the local NEPs to 
be stakeholder-driven and to take a watershed-based ecosystem 
approach. This is a unique niche and local NEPs generally fill 
it quite well, largely through collaboration and partnerships. 
The 28 NEPs across the Country have tackled complex water 
quality issues and, to varying degrees, have achieved on-the-
ground environmental results, secured and leveraged funds, 
improved public education about estuaries, and engaged 
communities and stakeholders.
    Some of the following six recommendations may seem by a few 
individuals as already occurring, but providing consistent 
application, codifying them across the system of local NEPs 
will improve the program's overall effectiveness.
    Recommendation number one: It is critical that the NEPs 
have continued authority and strengthened capacity through 
reauthorization and additional funding to update and implement 
their CCMPs. One of the fundamental issues preventing the 
National Estuary Program from being as effective as it could is 
insufficient funding to revise and update the CCMPs or to 
adequately support implementation activities.
    Recommendation number two: Formally embrace the concept of 
adaptive management. Local NEPs should employ an adaptive 
management approach by determining the effectiveness of their 
actions through monitoring and analysis of environmental data, 
and then modify those actions if they are not achieving the 
desired results.
    Recommendation three: Provide for a public process to 
generate annual strategic priorities that identify way to best 
target limited time and resources. The local NEPs need to 
remain agile, current, and adaptive so that they can 
strategically address new issues as they arise. Rather than 
waiting for a CCMP, sort of their blueprint for the estuary, to 
be revised, annual work plans that the NEPs develop as a 
requirement of the annual EPA funding could be used in a more 
strategic way to focus and prioritize the issues identified 
through the CCMP.
    Recommendation four: Establish habitat restoration as a 
national priority to be incorporated into all CCMPs and annual 
work plans.
    Recommendation five: Provide for a technology transfer 
program to other watershed groups to highlight what has worked 
with the NEPs.
    And, finally, recommendation six: Include a very specific 
provision that encourages regional collaboration among local 
NEPs to advance regional approaches to management. This 
collaboration should be fostered and supported by EPA.
    I want to thank you for the opportunity to address you 
today. I would be happy to answer any questions you may have.
    Mr. Hall. Thank you, Mr. Benoit.
    Mr. Carlin.
    Mr. Carlin. Thank you, Chairman Hall, Ranking Member 
Boozman. I am glad for the opportunity to appear before you 
today. My name is Michael Carlin. I am the Assistant General 
Manager for Water for the City and County of San Francisco. In 
that role, basically, I serve water to 2.4 million customers in 
the Bay Area--most of those are located outside of San 
Francisco--I manage 60,000 acres of watersheds in the San 
Francisco Bay Area, and I have a long-term partnership with the 
Federal Government because our primary source of water is 
located on Forest Service's and National Park Service lands.
    I am here today really to talk about three things, what I 
call the three ``I's'': integration, innovation, and 
inspiration. What does the estuary program, specifically the 
San Francisco Estuary Project do for me working for local 
government?
    One of the things it has done for me is basically the 
creation of the regional monitoring program. A question was 
raised about how do you measure performance. You don't know how 
much pollutants you can reduce until you know how much 
pollutants are actually present in the environment. So one of 
the early activities of the San Francisco Estuary Project was 
creating a regional monitoring program, which is now paid for 
by entities such as myself, because we want to know how much 
pollution is out there, and our efforts to clean up that 
pollution, is it having a long-term effect.
    This has branched out into habitat goals along the edges of 
the bay. Why is this important to me? Well, I just did a 
cleanup. It cost $24 million on the edge of the bay, and I 
wanted to know which type of habitat should be the restoration 
goal. It was an effective tool to have the habitat goal program 
in place. It was an effective tool for us to drive the cleanup 
that took place.
    Finally, there is a program looking at fisheries 
restoration. Steelhead is an important issue amongst all 
coastal and estuarine streams. One of the things that we have 
done is identified what are the primary streams that should be 
restored. We could put a lot of money into a lot of little 
streams, but where is the low-lying fruit? One of those is 
Alameda Creek, which basically is a watershed managed by the 
City and County of San Francisco in another county. We are 
looking at steelhead passage. We have already voluntarily 
removed two obsolete dams, and we are looking at partnering 
with other stakeholders in that watershed on long-term 
solutions, and these include both State, Federal, local 
governments and investor-owned utilities and others.
    The second thing I wanted to talk about was just 
innovation. We have talked about climate change in many forums 
and at many different levels. I share the Chair's views about 
climate change. They are real and we need to be innovative in 
order to address them. This is an issue that has risen to the 
forefront of the San Francisco Estuary Project. It is one that 
is happening and we need to come up with solutions now. We 
don't have all the science, though. One of the things that we 
have done as a water utility is form an alliance with other 
water utilities across the United States, including New York, 
Seattle, and those down in Southern California, to help guide 
or drive where the science needs to take place.
    Right now, climate change is done on a global scale. We 
need to drive it down to a watershed scale. That is the only 
way that we are actually going to come up with adaptive 
management strategies. We also need to have a no-regret 
strategy so that things we do today we don't start regretting 
tomorrow. It is important that we have that because we are 
investing people's dollars.
    There was a mantra in the 1960s. A call arose basically to 
save San Francisco Bay. I don't want, in 2060, basically the 
call to be ``Save us from San Francisco Bay'' as it rises.
    Finally, inspiration. Community involvement is a keystone 
of the San Francisco Estuary Project and the National Estuary 
Program. It reaches out; it develops an atmosphere of 
collaboration and cooperation. The information that is put out 
by the estuary project is one that receives wide circulation. 
One of the things that we need to do using the estuary project 
is to basically mentor the next generation of environmental 
leaders. A lot of the people that are attracted to things of 
this nature are our next environmental leaders, and I look 
towards the estuary project basically for my employees.
    Reauthorization is important. The project works; it brings 
people together who are driven to find solutions. They are not 
trying to blame each other. The emphasis should be that we try 
to align more along the Federal agencies, align amongst 
themselves to help us in the local entities.
    Finally, basically, the continued increased funding is 
necessary for the National Estuary Project and San Francisco 
Estuary Project because it provides a unique perspective to 
issues that individually, as local governments, may not have.
    Thank you very much, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Carlin. I will recognize myself 
for a round of questions.
    It is saddening and disturbing to me that the overall water 
quality scores in the northeast could stand significant 
improvement. I cannot help but think that part of the cause is 
that many of our sewer systems in this region are old CSO or 
SSO systems that spew untreated sewage into our waters when 
they are overwhelmed. Unfortunately, upgrading these systems is 
costly and the Revolving Loan Fund resources are scarce.
    Would providing more Clean Water Act State Revolving Loan 
Fund resources help to meet these NEP goals, Mr. Hooks?
    Mr. Hooks. Well, I am never one to turn down resources, so 
I think the answer is yes. Clearly, that is a fund that has 
actually gone down over the years. I think one of the benefits 
of the National Estuary Program, in addition to the State 
Revolving Fund, is its ability to attract funding from a 
variety of sources. As I mentioned earlier in my testimony, the 
NEP's ability to leverage resources has been one of the 
hallmarks of success of the program, and I think part of the 
reason for that is largely due to the fact that these NEPs have 
demonstrated on-the-ground success by improving the 
environment.
    I think one of the other things that the NEPs have also 
done is generate trust over time. One of the things that I have 
noticed since I have been associated with this office is the 
collaborative nature of the partners that are working around 
the table. I think it is that ability for this long-term, 
extended partnership over many years that has enabled people to 
trust the partners within the NEP and, as a result, over the 
past few years resources outside of the Federal Government have 
continued to increase.
    So I think it is a combination of Federal resources, State, 
local government, and private sector resources that are 
actually going to get us there ultimately.
    Mr. Hall. And, Mr. Hooks, would you say that the framework 
established by the NEP is robust enough to address today's 
merging estuary stressors, such as climate change, urban 
stormwater, and significant population increases?
    Mr. Hooks. I think one of the strengths of the NEPs is 
their ability to adapt to these emerging issues. Many of the 
NEPs that I have visited are at the forefront of trying to 
address some of these new emerging issues.
    One of the things that we recently launched within our 
office is the Climate Ready Estuaries Program. Having talked to 
some of the coastal zone managers and some of the NEP directors 
from around the Country, I think they are starting to recognize 
that climate change is a very real issue, particularly 
associated with sea level rise. One of the things that we hope 
to be able to do is to put some additional tools and data in 
their hands for them to make wise and efficient management 
decisions, and also conduct vulnerability assessments so that 
ultimately they can develop adaptation strategies that they can 
implement and share with other coastal zone managers in the 
rest of the Country.
    Mr. Hall. Thank you.
    Mr. Ribb, would you like to respond to that question?
    Mr. Ribb. I know that a lot of the programs that I am in 
contact with through the National Estuary Program have a strong 
applied science component, and understanding the impacts of 
climate change, there is a lot that we are going to need to 
understand. We are starting to look at, in my system, the 
different ways that nitrogen is being cycled within the Bay, 
not just from us reducing it, but what is happening.
    Are there changes in the food Web that are affecting 
fisheries, that are affecting the way nitrogen is taken up? I 
think that is something we are going to need to track on a 
larger scale to understand and to make those good management 
decisions about what we do with our treatment plants and what 
we do with our non-point sources. So I certainly advocate for 
making those science questions better understood.
    Mr. Hall. I would like to ask all of you, and maybe 
starting from Mr. Carlin and working back across the panel, to 
answer this one. Given the limited resources available to the 
Federal Government, we want to encourage cross-agency 
coordination in order to achieve the maximum results through 
the most cost-effective means.
    Is this taking place with our coasts and our estuaries? For 
instance, through the EPA's National Estuary Program, is 
coordinated planning and implementation taking place between 
the local stakeholders and all the primary Federal agencies--
EPA, NOAA, USDA, Fish and Wildlife Service, and the Corps of 
Engineers? Is there a mandate that these Federal agencies 
coordinate to prioritize projects and help clean up our coasts 
and our estuaries in the most cost-effective fashion?
    That is a long question, but you can start, if you would, 
Mr. Carlin.
    Mr. Carlin. Could I give you the short answer?
    Mr. Hall. Sure.
    Mr. Carlin. No. I think there is opportunity to provide 
greater coordination. I think that the agencies have different 
mandates, and sometimes they are conflicting mandates and they 
need to be harmonized. I think that one of the things that we 
have been able to do is creation of these comprehensive 
conservation and management plans is to try and create that 
harmony of those different mandates. What we need to do is 
actually get the Federal budgets lined up to actually have 
implementation take place on a coordinated scale rather than on 
an individual agency scale. Thank you.
    Mr. Hall. Mr. Ribb?
    Mr. Ribb. I would say that the issue of local priorities, 
there is requirement that there is coordination between, for 
instance, the NOAA programs and the National Estuary Program, 
CCMPs. I think a lot of the coordination gets done through 
personal relationships, it gets done through what is happening 
at the local level. I am very fortunate in that I have long and 
close working relationships with our local and regional NOAA 
people, with our CZM programs, with our NERRS program, so we 
are fortunate in that.
    But I think my comment about getting, at the sort of next 
level up, the Federal agencies to pay attention to what the 
local people have already determined that these are the 
priority activities so we don't have Federal initiatives coming 
in that are out of sync with what has been identified at that 
estuary level.
    Mr. Hall. Thank you.
    Mr. Benoit, I am sorry, I skipped over you.
    Mr. Benoit. That is okay. I think the coordination occurs 
at varying levels as you look at the different estuaries, and 
what is really nice about the NEP program is that it provides 
the forum to be able to engage others outside of just EPA in 
the discussions around what needs to be done and who is going 
to take some responsibility for actions to protect or to clean 
up the estuary.
    But for the NEPs I think the real crux is to ensure that 
they have the resources, the funding available to maintain that 
forum. As I was preparing testimony for this hearing, talking 
to a lot of NEPs and a lot of individuals who participate in 
the planning process in the NEPs, their concern is that the 
funding just isn't adequate for some of the NEPs to maintain a 
current blueprint for their estuary; it isn't adequate for them 
to be able to look towards implementation activities, which 
they need to bring some of those resources to the table to get 
other players to the table as well.
    So I think it is occurring to varying degrees in the 
different estuaries.
    Mr. Hall. I guess I would add to the question, as we go 
down the table: is there coordination between the Corps of 
Engineers and USDA, where a lot of the significant dollars are 
comparatively speaking? Is that happening?
    Mr. Kennedy?
    Mr. Kennedy. I think, first of all, we can do a lot better. 
I don't think there is any question about that. I certainly 
endorse the theme that you have heard at the local and regional 
level, sometimes the coordination really is better than at the 
national level.
    But I think at all levels what we are seeing is that the 
problems that you have heard about, that I think you are all 
pretty familiar with, now compounded by the emerging climate 
change issues and the beginning of these discussions of tipping 
points with all of the stressors the estuaries have already had 
now added to climate change, that we are driven--none of us 
have enough resources to begin to handle what are just--I think 
we are in crisis mode, or pretty close to it.
    So I think, as a result, we are probably doing more 
coordination than we have ever done before because, if we 
don't, individually we just don't have the resources and/or, in 
many cases, the expertise or the mandate to begin to address 
the huge problems that we are having.
    But I think at the national level--and this was mentioned 
as well--we have different jurisdictions, different Committees 
that are guiding different components of those Federal agencies 
that are working there. That does complicate the coordination, 
but I think it is getting better. In particular, there is, I 
think, some emerging discussions that certainly, say, five 
years ago we didn't have with, in particular, USDA and the 
Corps. These things are happening a lot more frequently than 
they used to, so I am encouraged that we are doing a lot 
better, but we could still do a lot better than we are doing.
    Mr. Hall. That is good news. Thank you for telling us that.
    Mr. Hooks?
    Mr. Hooks. I would agree with Mr. Kennedy. I think we can 
do better. I think there are many examples at the local level, 
very good examples where the Federal agencies actually are 
coordinating.
    One of the things that I would like to see is better 
coordination at the national level. For example, you mentioned 
USDA, particularly the resources associated with the Farm Bill. 
We work very closely with the USDA on nutrient reduction, and 
one of the things that I certainly would like to do is to 
target those resources a little bit more effectively; 
especially to look at some of the high-priority watersheds, 
some of those watersheds that are the major contributors of 
nitrogen and phosphorus to the environment. So coordinating our 
efforts better at the national level is one of the my 
priorities that I want to pursue.
    Working with the Army Corps of Engineers on the 404 
permitting issues, I think certainly we can always improve that 
relationship. There are certainly opportunities for improvement 
there and I think we are doing that better at the local level 
than perhaps at the national level.
    But these are very complex ecosystems and, as a result, it 
requires a lot of different players to come to the table. We 
are constantly discovering new people and new actors that 
should be involved, particularly as new issues are starting to 
emerge--climate change, pharmaceuticals and personal care 
products, what have you. New people are constantly coming to 
the table and I think having the existing National Estuary 
Program, the existing management conference or the existing 
stakeholders already at the table really facilitates our 
ability to address some of these problems quickly.
    Mr. Hall. Thank you, Mr. Hooks.
    I will now recognize the Ranking Member, Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Hall.
    I appreciate your testimony. I think it has been very good. 
The last panel shed some insight. We have talked a lot about 
climate change, and certainly that is something that is upon us 
and will be more so in the future.
    But when you look at these areas, you know, they have 
suffered some significant problems many years ago, and, to me, 
the real culprit, the thing that we have to manage is growth 
somehow, and that is a very, very difficult thing to do. I 
mean, it is easy for us to talk about climate change and we all 
agree. That is kind of this nebulous deal out there. But when 
it really gets down to it, how do you manage the stormwater 
runoff? How do you manage the lack of drinking water? As you 
suck that fresh water out what that does to the rest. Those 
kind of things.
    So I would really like for you to talk a little bit about 
that because that is upon us now and has been in the past, and 
I think is responsible for a lot of the problems that we have 
going on. So how do you deal with things like stormwater 
runoff? Is that the Federal Government's responsibility, is 
that the city's responsibility? Somebody mentioned--I think 
Congressman Hall did--the aging infrastructure of any community 
that has been around for 100 years. Much of the pipes and the 
sewer system that are there are still there from the original, 
when they laid the pipes.
    So, if we would, could we just talk with just a little bit 
of insight?
    Mr. Hooks. Absolutely. I am glad you mentioned that. The 
top issue that you are going to hear from most of the NEPs is 
not going to be climate change, it is going to be habitat loss, 
I think in large part due to development. That is probably the 
number one pressure that the NEPs are actually trying to deal 
with. I think one of the things that we try to stress, at least 
from the national level, is instituting smart growth principles 
so that we grow smarter closer to our coastline.
    One of the other things that we have been actively engaged 
in, is instituting some low-impact development practices that 
Congressman Dicks just mentioned earlier about vegetated swells 
and rain gardens and green roofs, trying to implement those 
types of practices. We are pushing that at the Federal level, 
but that is also being pushed at the State level and local 
levels as well.
    We are starting to see local ordinances that mandate some 
of these types of practices. We are starting to see 
organizations actually give out awards for cities and 
communities that are instituting these types of practices to 
reduce stormwater runoff. It is a very real and serious problem 
that most of our coastal communities, particularly our coastal 
communities along large urban centers, are really struggling 
with.
    Mr. Kennedy. Complex issue. You can address it from all 
different levels, so I will just take a little bit different 
spin here. I think education of the public is probably one of 
the most important things. Obviously, you have got all the 
infrastructure, the aging infrastructure, the new 
infrastructure, the development, but unless you have a real 
public will to change some of the practices that have been long 
established, that aren't working but are long established and 
maybe not as well appreciated and understood by the public, you 
are not going to get some of the changes you want.
    We spent a lot of time over the last couple of years going 
around the Country talking with, in p articular, local and 
regional folks about coastal zone issues and, in particular, 
water quality and water management, and one of the things we 
have heard routinely is that the local governments, county 
governments, sometimes don't have the resources, the expertise 
and the information to combat some of the development that 
takes place.
    So one of the things that we have been trying to do beyond 
just educating the public in general, and we have through our 
estuarine reserve programs and coastal zone managers and 
others, extensive programs just to provide the kind of 
background information about do you know what is happening to 
your sewage and what the importance of that is, is trying to 
arm the count, city, local planners with the kinds of expertise 
and information that they need to counteract some of the 
development that has gone on that we think potentially went on 
because they didn't have the tools in their arsenal to 
effectively maybe deflect or defend an opposing point of view 
to some of the development that has occurred.
    Many, many other things we could discuss, but I will stop 
there.
    Mr. Ribb. I think the local communities are the place where 
some of this has devolved down to through the phrase two 
stormwater requirements, and I know in our watershed in Rhode 
Island and Massachusetts communities are kind of struggling 
with what to do with that, and the States are a little behind 
the ball on that, I think, in providing them with the 
assistance.
    I was just involved in an EPA review of the Casco Bay 
Estuary Project, and what is really heartening to me to see up 
there is that the municipalities have organized to deal with 
these issues and they are not waiting for the State. There is a 
watershed that drains to the Casco Bay. There are 19 
communities that created an intergovernmental group that our 
NEP up there is supporting, providing them with technical 
assistance, and they are looking at we are bringing in folks to 
discuss stormwater utility districts because we think the 
States seem to be of a mind that that is a direction we are 
going to have to go if we are going to fund these things. The 
retrofits in the northeast are going to be a big issue for us.
    But I am heartened to see that the communities are kind of 
taking the lead in some of these areas.
    Mr. Benoit. I think trying to control growth requires some 
very difficult decisions to be made generally at the local 
level, and typically when you see those kind of tough decisions 
being made, you really need to have a lot of community support 
behind those decisions to see them carried through.
    One of the reasons that we are so engaged in habitat 
restoration is it is an opportunity to bring the community to 
the very areas that they care about and to educate them and 
remind them of how important those areas are. When you see 200 
volunteers, families, Boy Scouts, Girl Scouts show up to 
replant vegetation or to return shellfish to the Bay, or to 
help restore a fish run that hasn't been there for 125 years, 
all of those people care passionately about that region and 
that area once they have been there and re-experienced the 
restoration; they have been part of it, they care about what 
they have done, and we see that as a very powerful tool to 
engage the communities to care passionately about those 
resources and then willing to hopefully make some very tough 
decisions and stand by them.
    Mr. Carlin. It's a great question.
    Mr. Boozman. It is one that I am sure you have had 
countless hours, years of experience dealing with.
    Mr. Carlin. Oh, absolutely. Start off with basically land 
use decisions or local decision-making processes by elected 
officials at the local level. What we have been working on 
basically, in conjunction with the project and others, is how 
do we get into the planning codes the proper sort of 
requirements so that we don't have these insults to our 
environment in the future that we have today, and that is the 
key. You talked about legacy pollutants. What we have been 
worried about is the emerging pollutants that are going to come 
from new development or from emerging products.
    So you need setbacks along waterways. You shouldn't be 
building in flood plains. You can help. The Federal Government 
has flood protection programs. We need to have sort of greening 
basically as part of our mantra in our building code. There are 
opportunities that we are looking at in San Francisco to 
capture our stormwater and reuse it. We should be doing that; 
it offsets importing potable water that can be used for 
population growth in the future.
    It is an interesting statistic that in the Bay Area the 
population has increased by 19 percent and potable water use 
has only increased by 1 percent. That is because of 
conservation, recycled water, and other alternative sources.
    So we need to look at all those things. Stormwater is going 
to be an important part of my water portfolio in the future, 
and I need to get into that business, and that is what I am 
doing.
    Thank you.
    Mr. Boozman. Very good.
    Thank you, Mr. Chairman, and thanks to the panel.
    Mr. Hall. Thank you, Mr. Boozman.
    If I may, I would just like to ask Mr. Kennedy and Mr. 
Benoit a question. I think you both mentioned dam removal in 
your testimony. Occasionally we come upon two worthy objectives 
that seem to be at odds with each other. In my State of New 
York, there are, according to the Department of Energy's Idaho 
National Laboratory Website, 4,000 small dams and waterfalls 
and potential low-head hydroelectric sites which were either 
natural features or which were built to drive industries that 
are no longer there, like the Cantine Paper Mill Dam in the 
town of Saugerties.
    It is now just sitting there. It is probably not going to 
come down because the town's swimming area is upstream from it, 
along with boating. Eventually the Soapus Creek turns into a 
fabulous fly fishing creek as it goes upstream. And below the 
dam there are marinas and restaurants and homes, so even though 
it is a 70 feet tall, maybe 300 feet long spillway with tons of 
water a second coming over it that could supply power. In fact, 
those 4,000 sites are estimated by DOE to be a latent 1200 
megawatts or more if generating turbines are just put where the 
water is falling and wired into the grid.
    So I am wondering whether you have had, in your experience, 
any conflicts between dam removal and the use of this renewable 
energy source? This could help us in a small way to reverse or 
slow the advance of climate change. I imagine the further away 
you get from a big body of water, the less of a problem that 
is. But there is always a fishery that has, at some point, been 
disturbed.
    Mr. Kennedy?
    Mr. Kennedy. I was going to deny that I had anything in 
there in my testimony about dams, but now that you mention it, 
there is something; it is an organization that I don't 
represent that has been doing that work. I would be happy to 
get back with you with a further response that is much more 
comprehensive, but the little that I do know is, yes, there is 
a tradeoff when you do these things, and in most cases that I 
am familiar with the community is definitely involved. This is 
not the kind of thing that is done without some community 
commitment and involvement.
    And the tradeoff is we have had a loss of habitat, a loss 
of the productivity of a fishery, and does that outweigh 
whatever other beneficial uses we might have gotten from the 
dam. And in the cases, again, that I familiar with, with the 
community and the other agencies' fairly thorough analysis, 
there is a cost benefit that says that to create the new 
habitat for the fishery, that particular aspect outweighs the 
other loss that you are going to get. But that is as far as I 
can take the answer.
    Mr. Hall. Mr. Benoit?
    Mr. Benoit. I think Mr. Kennedy really presented that 
response quite well. The only thing that I will mention, 
perhaps, in addition is that they don't necessarily have to be 
large functional dams, they can be very small, a matter of a 
couple feet high; and that is all it takes to block the passage 
of fish.
    I had the opportunity last year to visit one of our member 
groups in Connecticut and Save Long Island Sound, where they 
had a small, old--from the 1800s--water supply pond that was 
created for a local community, and the fish had not gone beyond 
the dam that they created for over 125 years; had no way to get 
up into the upper reaches of the pond or the other small 
streams that were above that and beyond it. So the community, 
through our program and a lot of partnerships, created a fish 
run or a fish ladder to bypass the dam.
    The people in the community didn't want to take the dam 
down; it was a very sort of picturesque little area, but they 
wanted to restore the fish run. So they built a ladder that the 
fish could actually swim up as the stream came down the ladder, 
with the plans of re-establishing fish in the pond the 
following spring so that they could re-establish the fish run. 
Lo and behold, the following spring, when they went to see what 
happened, the fish were already using that ladder for the first 
time in 125 years, coming back up the stream, using the ladder 
and going up in the upper reaches of the pond. First time in 
125 years.
    So in some cases there are opportunities to recreate the 
habitats and the opportunity to get those fish and those 
resources back up where they used to be. Very little expense; 
great community interaction. A lot of volunteers turned out to 
help make that work and lots of partnership together are able 
to make it happen.
    Mr. Hall. Well, that is encouraging to hear, and also to 
think that it can be done at the same time that the energy can 
be obtained as well, because God knows any energy source that 
is free and has no emissions is one that we need to think 
carefully about before we get rid of it. In my district, 
Swinging Bridge Dam is a small, low-head hydro site. We just 
had the owner, a company that just bought it, fill the penstock 
with cement to prevent it from being used to generate power, 
and I think that that is the kind of thing that we ought to be 
preventing.
    I am all for fish runs being restored, but I also think 
there is no source of energy that does not have an impact. You 
are either going to have coal miners dying underground, nuclear 
waste, wars in foreign lands that have oil, windmills in your 
view shed, dams where you might like to have your fishery back. 
We have choices that we need to make and, unfortunately, you 
have to prioritize what we, as a community, as a Country, think 
are the least impact or the least negative impact.
    I want to thank all of you for protecting the oceans. My 
father taught me, when I was five, to sail on Codiunk Island 
off the coast of Massachusetts, and I have sailed and swum and 
probably accidentally drank some of the salt in----
    [Laughter.]
    Mr. Hall.--and fresh water in Narragansett Bay and in 
Buzzards Bay and the Chesapeake and San Francisco Bay, and it 
is my honor to represent a district that is divided by the 
Hudson River, which is an estuary which is tidal all the way to 
Troy, north of Albany. We are seeing it getting cleaned up from 
human waste when we found out that PCBs had been dumped for 
years up at Fort Edward by General Electric into the river, and 
now the whole Hudson River is a Superfund site.
    So there is continuing work to be done, but, Mr. Hooks, I 
thank you for bringing up, the issue of smart growth, because 
that is what we are hearing from our elected officials on both 
sides of the aisle, regardless of political persuasion. They 
have started to connect the fact that we had three 50-year 
storms in the last five years in our district that caused 
flooding on the Delaware that nearly sank the Wallkill, the 10-
mile river that runs through my hometown of Dover Plains on the 
other side of the river.
    And as we look across the Country at the flooding currently 
happening in the Mississippi Valley and Cedar Rapids, the city 
that never floods, being under 12 feet of water, and examples 
of other extreme weather events, I think it is clear that a 
couple of things are happening or need to happen. One is that 
we all need to educate ourselves and our neighbors and friends 
about climate change and also about smart growth. It is, in 
part, by restoring those wetlands and grasslands and forest 
lands and natural retention areas that will hold water in the 
event of an extreme rain event that we can deal more 
effectively with these wet weather events. This is as opposed 
to putting in so much pavement and roofs and impervious 
surfaces that they dump that water immediately into the streams 
and raise the flood levels immediately. That is one thing that 
we need to do.
    The other is to roll up our sleeves and agree on some way 
of trying to slow the change in our climate by reducing CO2 
emissions.
    So we certainly have our work cut out for us. We thank you 
for your testimony and your patience.
    Mr. Boozman, if you have no further questions, thanks again 
for your expertise. I look forward to speaking to you again.
    This hearing now stands adjourned.
    [Whereupon, at 4:13 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3309.013
    
    [GRAPHIC] [TIFF OMITTED] T3309.014
    
    [GRAPHIC] [TIFF OMITTED] T3309.015
    
    [GRAPHIC] [TIFF OMITTED] T3309.016
    
    [GRAPHIC] [TIFF OMITTED] T3309.017
    
    [GRAPHIC] [TIFF OMITTED] T3309.018
    
    [GRAPHIC] [TIFF OMITTED] T3309.019
    
    [GRAPHIC] [TIFF OMITTED] T3309.020
    
    [GRAPHIC] [TIFF OMITTED] T3309.021
    
    [GRAPHIC] [TIFF OMITTED] T3309.022
    
    [GRAPHIC] [TIFF OMITTED] T3309.023
    
    [GRAPHIC] [TIFF OMITTED] T3309.024
    
    [GRAPHIC] [TIFF OMITTED] T3309.025
    
    [GRAPHIC] [TIFF OMITTED] T3309.026
    
    [GRAPHIC] [TIFF OMITTED] T3309.027
    
    [GRAPHIC] [TIFF OMITTED] T3309.028
    
    [GRAPHIC] [TIFF OMITTED] T3309.029
    
    [GRAPHIC] [TIFF OMITTED] T3309.030
    
    [GRAPHIC] [TIFF OMITTED] T3309.031
    
    [GRAPHIC] [TIFF OMITTED] T3309.032
    
    [GRAPHIC] [TIFF OMITTED] T3309.033
    
    [GRAPHIC] [TIFF OMITTED] T3309.034
    
    [GRAPHIC] [TIFF OMITTED] T3309.035
    
    [GRAPHIC] [TIFF OMITTED] T3309.036
    
    [GRAPHIC] [TIFF OMITTED] T3309.037
    
    [GRAPHIC] [TIFF OMITTED] T3309.038
    
    [GRAPHIC] [TIFF OMITTED] T3309.039
    
    [GRAPHIC] [TIFF OMITTED] T3309.040
    
    [GRAPHIC] [TIFF OMITTED] T3309.041
    
    [GRAPHIC] [TIFF OMITTED] T3309.042
    
    [GRAPHIC] [TIFF OMITTED] T3309.043
    
    [GRAPHIC] [TIFF OMITTED] T3309.044
    
    [GRAPHIC] [TIFF OMITTED] T3309.045
    
    [GRAPHIC] [TIFF OMITTED] T3309.046
    
    [GRAPHIC] [TIFF OMITTED] T3309.047
    
    [GRAPHIC] [TIFF OMITTED] T3309.048
    
    [GRAPHIC] [TIFF OMITTED] T3309.049
    
    [GRAPHIC] [TIFF OMITTED] T3309.050
    
    [GRAPHIC] [TIFF OMITTED] T3309.051
    
    [GRAPHIC] [TIFF OMITTED] T3309.052
    
    [GRAPHIC] [TIFF OMITTED] T3309.053
    
    [GRAPHIC] [TIFF OMITTED] T3309.054
    
    [GRAPHIC] [TIFF OMITTED] T3309.055
    
    [GRAPHIC] [TIFF OMITTED] T3309.056
    
    [GRAPHIC] [TIFF OMITTED] T3309.057
    
    [GRAPHIC] [TIFF OMITTED] T3309.058
    
    [GRAPHIC] [TIFF OMITTED] T3309.059
    
    [GRAPHIC] [TIFF OMITTED] T3309.060
    
    [GRAPHIC] [TIFF OMITTED] T3309.061
    
    [GRAPHIC] [TIFF OMITTED] T3309.062
    
    [GRAPHIC] [TIFF OMITTED] T3309.063
    
    [GRAPHIC] [TIFF OMITTED] T3309.064
    
    [GRAPHIC] [TIFF OMITTED] T3309.065
    
    [GRAPHIC] [TIFF OMITTED] T3309.066
    
    [GRAPHIC] [TIFF OMITTED] T3309.067
    
    [GRAPHIC] [TIFF OMITTED] T3309.068
    
    [GRAPHIC] [TIFF OMITTED] T3309.069
    
    [GRAPHIC] [TIFF OMITTED] T3309.070
    
    [GRAPHIC] [TIFF OMITTED] T3309.071
    
    [GRAPHIC] [TIFF OMITTED] T3309.072
    
    [GRAPHIC] [TIFF OMITTED] T3309.073
    
    [GRAPHIC] [TIFF OMITTED] T3309.074
    
    [GRAPHIC] [TIFF OMITTED] T3309.075
    
    [GRAPHIC] [TIFF OMITTED] T3309.076
    
    [GRAPHIC] [TIFF OMITTED] T3309.077
    
    [GRAPHIC] [TIFF OMITTED] T3309.078
    
    [GRAPHIC] [TIFF OMITTED] T3309.079
    
    [GRAPHIC] [TIFF OMITTED] T3309.080
    
    [GRAPHIC] [TIFF OMITTED] T3309.081
    
    [GRAPHIC] [TIFF OMITTED] T3309.082
    
    [GRAPHIC] [TIFF OMITTED] T3309.083
    
    [GRAPHIC] [TIFF OMITTED] T3309.084
    
    [GRAPHIC] [TIFF OMITTED] T3309.085
    
    [GRAPHIC] [TIFF OMITTED] T3309.086
    
    [GRAPHIC] [TIFF OMITTED] T3309.087
    
    [GRAPHIC] [TIFF OMITTED] T3309.088
    
    [GRAPHIC] [TIFF OMITTED] T3309.089
    
    [GRAPHIC] [TIFF OMITTED] T3309.090
    
    [GRAPHIC] [TIFF OMITTED] T3309.091
    
    [GRAPHIC] [TIFF OMITTED] T3309.092
    
    [GRAPHIC] [TIFF OMITTED] T3309.093
    
    [GRAPHIC] [TIFF OMITTED] T3309.094
    
    [GRAPHIC] [TIFF OMITTED] T3309.095
    
    [GRAPHIC] [TIFF OMITTED] T3309.096
    
    [GRAPHIC] [TIFF OMITTED] T3309.097
    
    [GRAPHIC] [TIFF OMITTED] T3309.098
    
    [GRAPHIC] [TIFF OMITTED] T3309.099
    
    [GRAPHIC] [TIFF OMITTED] T3309.100
    
    [GRAPHIC] [TIFF OMITTED] T3309.101
    
                                    

</pre></body></html>
